<html>
<title> - GANG CRIME PREVENTION AND THE NEED TO FOSTER INNOVATIVE SOLUTIONS AT THE FEDERAL LEVEL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 GANG CRIME PREVENTION AND THE NEED TO FOSTER INNOVATIVE SOLUTIONS AT 
                           THE FEDERAL LEVEL

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2007

                               __________

                           Serial No. 110-121

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

38-112 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel




















                            C O N T E N T S

                              ----------                              

                            OCTOBER 2, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

                               WITNESSES

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
The Honorable Elijah E. Cummings, a Representative in Congress 
  from the State of Maryland
  Oral Testimony.................................................    10
  Prepared Statement.............................................    11
The Honorable Joe Baca, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................    13
  Prepared Statement.............................................    14
The Honorable Nicholas V. Lampson, a Representative in Congress 
  from the State of Texas
  Oral Testimony.................................................    15
  Prepared Statement.............................................    17
The Honorable Jerry McNerney, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
Mr. Brian W. Walsh, Senior Legal Research Fellow, Center for 
  Legal and Judicial Studies, The Heritage Foundation, 
  Washington, DC
  Oral Testimony.................................................    30
  Prepared Statement.............................................    33
The Honorable Jerrauld C. Jones, Judge, Norfolk Juvenile and 
  Domestic Relations District Court, Norfolk, VA
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45
The Honorable Richard Roper, United States Attorney, Northern 
  District of Texas
  Oral Testimony.................................................    47
  Prepared Statement.............................................    50
Mr. Paul L. Seave, Director, Gang and Youth Violence Policy 
  Office of the Governor, Sacramento, CA
  Oral Testimony.................................................    73
  Prepared Statement.............................................    74
Mr. Kevin Pranis, Researcher, Justice Policy Institute, 
  Washington, DC
  Oral Testimony.................................................    75
  Prepared Statement.............................................    78
Mr. Peter Scharf, Executive Director, Center for Society, Law and 
  Justice, Austin, TX
  Oral Testimony.................................................    82
  Prepared Statement.............................................    85

                                APPENDIX

Material Submitted for the Hearing Record........................   127


 GANG CRIME PREVENTION AND THE NEED TO FOSTER INNOVATIVE SOLUTIONS AT 
                           THE FEDERAL LEVEL

                              ----------                              


                        TUESDAY, OCTOBER 2, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:06 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Waters, Delahunt, Johnson, 
Jackson Lee, Sutton, Forbes, Sensenbrenner, Coble, Chabot, and 
Lungren.
    Staff present: Bobby Vassar, Subcommittee Chief Counsel; 
Gregory Barnes, Majority Counsel; Veronica Eligan, Professional 
Staff Member; Michael Volkov, Minority Counsel; Caroline Lynch, 
Minority Counsel; and Kelsey Whitlock, Minority Staff 
Assistant.
    Mr. Scott. The hearing will come to order.
    Good afternoon. I am pleased to open the hearing today on 
what is effective in preventing gang crime and what is not. In 
working on crime issues over the years, I have learned that 
when it comes to crime policy, you have a choice. You can 
reduce crime, or you can play politics.
    The politics of crime calls for so-called tough on crime 
approaches such as more death penalties, more life without 
parole, a mandatory minimum, treating more juveniles as adults, 
or gang members, even cutting out cable television in the 
prisons. However, we can now show of our research and evidence 
that, while these approaches sound good, they have done nothing 
to prevent crime.
    Under the get tough approach no matter how tough you got 
last year, you have to get tougher this year. And we have been 
getting tougher and tougher year after year for over 25 years 
now. Since 1980 we have gone from around 200,000 persons 
incarcerated in the United States to over 2 million, with 
annual prison costs increasing year after year.
    As a result of these approaches, the United States is the 
world's leading incarcerator by far, with the average 
incarceration rates at seven times the international average. 
The world incarceration average is about 100 to 150 persons per 
100,000 citizens. The average rate of incarceration in the 
United States is over 700 per 100,000. In some inner city 
communities the rate isn't 700 or 1,000. It is 2,000, 3,000, as 
high as 4,000 per 100,000.
    The next highest incarceration rate in the world is 560 per 
100,000 in Russia. Everybody else is much lower than that such 
as India, the world's leading democracy, the largest democracy 
with 36 per 100,000 and China, the largest country by 
population at a rate of 118 per 100,00.
    And the United States has some of the world's most severe 
punishments for crime, including juveniles. Of more than 2,200 
juveniles sentenced to life without parole, all but 12 are in 
the United States. And some of those given this sentence were 
first-time offenders under circumstances such as being a 
passenger in a car from which there was a drive-by shooting.
    Under proposals before us to expand the definition of a 
gang and treatment of conspiracies and attempts the same as the 
commission, we will find that we have a lot more of fringe-
involved young people serving life without parole sentences. So 
no one can say that we are not already tough on crime.
    All States have provisions which allow, if not require, 
juveniles, some as young as 12, to be treated as adults for 
trial and sentencing as well as incarceration. Most juveniles 
who are treated as adults are convicted of nonviolent offenses. 
So we are already very tough on crime, including crimes by 
juveniles. Yet crime persists and has been growing.
    Research and analysis, as well as common sense, tells us 
that no matter how tough you are on people you prosecute for 
crime today, unless you are addressing the reasons that got 
them to the point to commit crimes in the first place, the next 
wave developing in the system will simply replace the ones you 
take out and the crime continues. So just getting tough on 
sentencing has a limited impact on crime.
    And the impact for all of this focus on tough on crime 
approaches fall grossly disproportionately on minorities, 
particularly Black and Hispanic children. Many studies have 
been established that when compared to similarly situated White 
children, minorities are treated more harshly at every stage of 
the juvenile and criminal justice system.
    I am concerned that policies such as expanding the 
definition of gang and expanding gang databases would only 
exacerbate that problem without any impact on reducing crime. 
These are kids who are on a cradle to prison pipeline without 
appropriate intervention.
    When we see how simple it is to get them on a cradle to 
college pipeline, it is tragic and even more costly to society 
in the long run if we don't do so. So all of the credible 
evidence and research shows that a continuum of programs for 
youth identified as at risk to involvement of delinquent 
behavior, and intervention for those already involved, will 
save much more than they cost when compared to the avoided 
costs in law enforcement and other costs by reducing crime.
    These programs are most effective when they are provided in 
the context of coordinated, collaborative strategy involving 
the law enforcement community, education, social services, 
mental health, nonprofit, faith-based, and business sectors 
working with identified children at risk of involvement in the 
criminal justice system.
    I am developing a bill to incorporate these proven concepts 
and will be calling our bill the ``Youth Prison Reduction 
Through Opportunities, Mentoring, Intervention, Support, and 
Education,'' or ``Youth Promise Act.'' The bill is being 
developed in consultation with researchers, law enforcement, 
juvenile justice practitioners, and child development experts 
focusing on research and evidence-based preventive and 
intervention approaches which have been proven to reduce crime. 
And I look forward to working with my colleagues in adopting 
these proven concepts.
    I will now yield to my colleague from Virginia, the 
distinguished gentleman from the 4th congressional district, 
Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, for holding this 
hearing. And I would certainly like to thank all of our very 
distinguished witnesses who will be here today. I guess I could 
sum it up with one phrase. Here we go again.
    You know, when we deal with gang problems and gang crimes, 
it is exactly like the end of the Casablanca movie where they 
look around and say, ``Round up the usual suspects.'' Every 
time we have a problem with gangs--well, I can't say that.
    The first time we had a problem with gangs, and I brought a 
gang bill before the Committee, those that are now in the 
majority asked this question. They said, ``Do we have a gang 
problem? We don't really have a gang problem.''
    I don't think anybody questions today whether or not we 
have a gang problem. I think at least that part of it is clear. 
But beyond that, we continue to do the same thing.
    We bring in the same basic arguments. We hear. We chat. We 
talk. And yet we don't create the solutions that we need to to 
go out and deal with the problem.
    My good friend, the distinguished colleague, says that we 
can either reduce crime, or we can play politics. Playing 
politics is what we do. We talk, and we talk. And we don't put 
any solutions in.
    The Chairman mentioned the fact that we want to have 
evidenced-based programs. The reality is that over and over 
again, based on witnesses that the majority has brought in to 
testify on these very issues, despite all the money we are 
spending on prevention programs, their witnesses have said very 
clearly.
    And, look, I understand. Everybody that has a program--it's 
like after 9/11. Everybody that wanted to renovate an old 
building anywhere in the country was coming into my office and 
saying, ``This is all about national security and homeland 
security.'' And you know, I see people day after day who come 
before us, and they have programs and many of them are 
meritorious.
    But they are getting funding and money. And it is important 
for them to keep that money stream going.
    But based on the majority's witnesses and the testimony we 
have had in here, less than 20 percent of the over 600 programs 
that we are funding for gang prevention and prevention of 
teenage crime have ever even been evaluated as to whether or 
not there was any evidence that they actually helped reduce 
crime. And, in fact, based on their witnesses, the testimony 
was that of the ones that were evaluated, some of them where we 
are spending money were actually harmful.
    We have heard so much of the issues that surround gang 
violence and gang crimes and the increase in gangs in the 
country. And we recognize that we do have this tick up in 
violent crime. And a lot of it is related to gangs. But there 
are really two big approaches that we have.
    One of them is this. If I have a school and outside there 
are five individuals who are vandalizing cars and slashing 
tires, one approach says we are going to go arrest the people 
that are slashing the tires and vandalizing the cars and stop 
them from doing it. The other approach is let us go to the 
1,000 that are in the school and have a chat with them and tell 
them why they shouldn't be out there slashing tires and 
vandalizing the cars.
    And we support prevention programs. We have said that over 
and over again. But one of the things that we have also said is 
we are not going to stop the gang violence in this country 
until we create the partnerships between the Federal, State and 
local levels that are needed to go after these large gang 
networks that we are seeing across the country. We have got to 
do that.
    Number two, we have got to stop just waiting until we have 
crimes that are committed, because if we prosecute them, we are 
going to see 20 new people out on the street the next day for 
every one we prosecute. We have got to pull these networks down 
and stop the recruiting machines.
    And then we have also got to recognize that based on the 
testimony that we have had ad nauseum in this Committee--we 
have had testimony that a large portion of some of the most 
violent gangs in America were a result sometime between 65 and 
80 percent of people who were here illegally, which means that 
most of the programs that we have that we are trying to get to 
prevent them would never have stopped them in the first place. 
And we have got to stop that door from continuing to remain 
open.
    So we thank you for your work. Thank you for being here. We 
are looking forward to your testimony. But I know that hope 
springs eternal. And I am still hoping that one day we will be 
able to actually get the solutions that we need, and get that 
bill passed out of the House and the Senate, so that we can 
stop this rising gang problem that we have across the country.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Scott. Thank you, Mr. Forbes.
    I want to recognize the presence of the gentleman from 
Massachusetts, Mr. Delahunt, and the gentleman from North 
Carolina, Mr. Coble, and ask that additional opening statements 
be made part of the record, without objection. We have two very 
distinguished panels of witnesses today to help our 
deliberations about Federal solutions to gang crime prevention.
    Our first panel will be a panel of Members. Our first 
witness will be the Honorable Adam B. Schiff. He represents 
California's 29th Congressional District, serves on the 
Judiciary Committee and Appropriations Committee during his 
tenure in Congress, is focused on bolstering national security, 
strengthening our communities, and introducing a kids-first 
agenda of initiatives to improve education, safety and health 
care for children.
    In fact, among many awards that he has received from local 
organizations for his commitment to our community is the 
President's Award from the Child Education Center Preschool in 
LaCanada for his work on his kids first agenda. He also has 
been presented with Day One's Community Champion Award for his 
effort to protect youth through support of after school 
programs, drug prevention programs and children's health care 
initiatives.
    Prior to serving in Congress, he was a State senator in 
California. And before serving in the California legislature, 
he was an assistant U.S. attorney in Los Angeles for 6 years. 
He is a graduate of Stanford University and Harvard Law School.
    Our next witness will be Elijah Cummings, from Maryland's 
7th District. He serves as a senior Member of the House 
Committee on Transportation and Infrastructure and is Chairman 
of the Subcommittee on Coast Guard and Maritime Transportation. 
He continues the work he began as Ranking Member of the now 
defunct Subcommittee on Criminal Justice, Drug Policy, and 
Human Resources.
    In that capacity he oversaw the reauthorization of the 
Office of National Drug Control Policy, better known as the 
drug czar's office. And he was an outspoken voice of fair 
treatment-based solutions to the country's drug problems, as 
well as for increased and comprehensive oversight of our 
Nation's clinical laboratory inspection process.
    Prior to Congress, he served in the Maryland House of 
Delegates for 16 years, graduated from Howard University in 
Washington, D.C., and the University of Maryland Law School. He 
practiced law for 19 years before entering Congress.
    Our next witness will be the Honorable Joe Baca, from 
California's 43rd District. He serves on the House Agriculture 
Committee and Chairs the Subcommittee on Departmental 
Operations Oversight, Nutrition and Forestry. He worked for 15 
years in community relations with General Telephone and 
Electric.
    In 1979 he was elected to the board of trustees for the San 
Bernardino Valley College District. He was elected to the State 
assembly in 1992 and State senate in California in 1998. He 
earned a bachelor's degree in sociology from California State 
University at Los Angeles.
    And our next witness will be Nick Lampson, from the 22nd 
District of Texas. He is a Member of the Committee on Science 
and Technology and Chairs the Subcommittee on Energy and the 
Environment. In addition to his Committee assignments, he has 
worked hard on behalf of children and education generally.
    He is a former high school science teacher. And his wife, 
Susan, is a special education teacher. He has two degrees from 
Lamar University in Beaumont, Texas, a bachelor's degree in 
biology and a master's degree in education.
    Our next witness will be Jerry McNerney, from California's 
11th District. He is a first term in the United States House of 
Representatives, and serves on the Transportation 
Infrastructure Committee and is a Member of both the Highways 
and Transit and Water Resources and Environmental 
Subcommittees. He also serves on the House Committee on 
Veterans Affairs and House Committee on Science and Technology.
    Prior to Congress, he served as a CEO of a startup company 
that manufactures wind turbines. During his career in wind 
energy, his work contributed to saving the equivalent of 
approximately 30 million barrels of oil. Given this unique 
background and dedication, he is appointed to the Select 
Committee on Energy and Dependence and Global Warming. He has 
three degrees from the University of New Mexico, a bachelor's, 
master's and Ph.D. in mathematics.
    Our next witness will be Charles Dent, from Pennsylvania's 
15th District. He serves on the Subcommittee, and he is joining 
us just in time, serves on the Committee of Homeland Security 
and the Committee on Security and Transportation 
Infrastructure.
    During his congressional tenure he has also worked for 
urban redevelopment and crime prevention. He has a bachelor's 
degree in foreign science and international politics from 
Pennsylvania State University and a master's degree in public 
administration from Lehigh University in Pennsylvania.
    And our final witness will be David Reichert, from 
Washington's 8th District. He is serving his second term as a 
representative from the 8th district. He serves on three 
Committees, Homeland Security, Transportation and 
Infrastructure, and Science and Technology. He also serves on 
the Subcommittee on Emergency Preparedness, Science and 
Technology.
    Prior to Congress, he served in the King County, 
Washington, Sheriff's office, and in 1997 became the first 
elected sheriff in over 30 years. Under his leadership the 
county saw a significant drop in violent crime. He brought 
national recognition to the sheriff's office as head of the 
Green River task force solving the largest serial murder case 
in United States history. He is a graduate from Concordia 
Lutheran College in Portland.
    And I would want to mention to each of our witnesses that 
your written statements will be entered in the record in their 
entirety. I would ask each of you to summarize your testimony 
in 5 minutes. You are familiar with the lighting devices. And 
so, we will begin with Representative Schiff.

TESTIMONY OF THE HONORABLE ADAM B. SCHIFF, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Mr. Chairman, thank you very much for having 
this hearing and for inviting us to testify. Those are probably 
the nicest introductions we have ever received by any Chairman. 
And we are very appreciative.
    I also want to thank you for allowing me to suggest a 
witness for the second panel, Paul Seave, who I had the 
opportunity to serve with in the U.S. attorney's office in Los 
Angeles, who then went on to become a U.S. attorney in 
Sacramento, who worked with our attorney general on gang 
prevention and now heads up Governor Schwarzenegger's office of 
gang and youth violence policy.
    As the Chairman knows, I have long been interested in the 
gang problem, going back to my days as a prosecutor. And I 
welcome this opportunity to testify about H.R. 3547, the Gang 
Prevention, Intervention and Suppression Act, that includes 
strong prevention as well as intervention components.
    Los Angeles, unfortunately, probably has the distinction of 
being the gang capital of the country, maybe the gang capital 
of the world. Our problem is not only extensive in terms of 
numbers, but it is multi-generational. We have seen not only 
the problem, I think, in Los Angeles, but we have also seen 
part of the solution, the positive role that gang intervention 
workers, such as Homeboy Industries in Los Angeles, play in 
helping gang involved youth find an alternative to a life of 
crime.
    When I was in the State senate, I authored a bill that was 
unique at the time that required that we invest as much in 
prevention as we are investing in suppression. As the time we 
were investing hundreds of millions of dollars in the COPS 
program, which I think was money very well spent. But we 
matched that through a bill I authored with Tony Cardenas with 
an equal amount of money for prevention.
    And Rand has subsequently done an analysis of this approach 
and found that this combination of prevention and enforcement 
has been very effective in attacking the problem of gang 
violence. And I think a model similar to that on the Federal 
level could be equally successful.
    For that reason, in 2005, I introduced a bipartisan gang 
bill along with Representative Mary Bono. And our Senate 
counterpart was introduced by Senators Feinstein and Hatch. Our 
bill was a comprehensive effort to strengthen gang enforcement 
and prevention efforts. It included numerous tools to help law 
enforcement and prosecutors combat gang violence. And it 
provided resources to bolster the fight against gangs through 
law enforcement as well as intervention and prevention programs 
for youth.
    However, the prevention components of my bill were stripped 
out last session. A number of death penalties and mandatory 
minimums were added, and the bill was reintroduced and marked 
up but with the elimination of all the prevention components of 
the bill. I was compelled to vote against the legislation.
    This year Representative Bono and I again joined Senators 
Feinstein and Hatch to introduce new gang legislation. During 
the Senate Judiciary markup, a number of changes were made to 
the Senate bill. And that bill has since passed unanimously.
    I have also been working with my colleagues here in the 
House and with numerous outside organizations interested in 
this issue to revise our legislation, which we introduced in 
its revised form 2 weeks ago. And I appreciate the feedback 
that I have received both from the Chairman of the Subcommittee 
and his staff as well as Chairman Conyers. I very much 
appreciate having Chairman Conyers' input and support for this 
legislation.
    The bill provides significant resources for evidence-based 
community gang prevention, intervention, and reentry 
activities. It revises criminal penalties for gang members who 
are convicted of gang crimes. And significant funding in the 
bill is directed toward the high intensity gang activity area 
program, which targets resources in areas where gang activity 
is particularly prevalent.
    Significantly, though, half of the funding supports 
prevention and intervention initiatives through schools, 
community service providers and faith-based leaders to provide 
gang-involved or seriously at-risk youth with alternatives to 
gangs. And the other half of the funding supports multi-
jurisdictional criminal street gang enforcement teams and 
research to identify best practices among numerous gang 
prevention and intervention models.
    Our legislation also provides new funding for community-
based gang prevention and intervention programs for both 
communities with newly emerging gang problems and those with 
decades old issues. The bill also recognizes that education and 
jobs are critical to help gang involved youth and young adults 
that are reentering society from the criminal justice system. 
The bill has grants to help youth develop educational skills 
and enhance their long-term employability.
    Another grant programs works with young adults to develop 
the skills and education to be placed in an apprenticeship in 
the construction industry. These prevention programs total a 
$700 million authorization over 5 years.
    H.R. 3547 is a comprehensive bill that recognizes that 
enforcement efforts are necessary to address our gang problem 
and authorizes $500 million over 5 years for suppression 
activities. The legislation includes funding for DOJ's Project 
Safe Neighborhoods anti-gang initiative. It expands the FBI 
Safe Street Program to support gang enforcement. It also 
provides grants to State and local law enforcement and 
prosecutors for hiring, technology, equipment and training.
    Legislation also amends the criminal code to define 
criminal street gang and gang crime and sets out penalties for 
commission of a gang crime and furtherance of the gang and for 
recruitment. The bill also addresses violent crimes committed 
during drug trafficking. And it also limits possession of 
firearms by adjudicated gang members and terrorists, and it 
raises the statute of limitations on violent crimes and 
terrorism offenses.
    I am proud of the efforts we have made in this legislation 
to comprehensively address the gang problem. And I believe this 
takes an important step toward providing the resources and 
tools to attack the problem at its roots. The legislation is 
supported by members and organizations across the political 
spectrum, from the Conference of Mayors to the National 
Association of Police Organizations, from L.A. Mayor, 
Villaraigosa to California Governor Arnold Schwarzenegger.
    Again, we made substantial changes from the earlier 
introduced version of the bill and from the Senate vehicle, 
which I encourage the Subcommittee to examine carefully. And I 
thank the Chairman again for the opportunity to testify.
    [The prepared statement of Mr. Schiff follows:]
Prepared Statement of the Honorable Adam B. Schiff, a Representative in 
                 Congress from the State of California
    Mr. Chairman, thank you for inviting me to testify before the 
Subcommittee. This hearing focuses on gang crime prevention and the 
need to foster innovative solutions at the federal level. I have long 
been interested in gang crime prevention, and I am proud that my 
legislation, H.R. 3547, the Gang Prevention, Intervention and 
Suppression Act, includes strong prevention and intervention 
components.
    Since my days as a prosecutor, I have been concerned with the 
growing threat posed by gangs. I have seen the destructive impact that 
gangs have on families, our youth, and our communities. And I have the 
positive role that gang intervention workers, such as Homeboy 
Industries in Los Angeles, play in helping gang-involved youth find an 
alternative to a life of crime.
    As a state Senator, I authored one of the landmark approaches to 
dealing with juvenile crime, and for the first time, we invested as 
much in the prevention of crime as in the suppression of crime. We put 
$100 million into preventive work to keep kids out of trouble, and we 
matched it with $100 million in the COPS program. Analyses have 
demonstrated its effectiveness. I believe that such a model that 
invests heavily in prevention programs should be implemented at the 
federal level.
    For this reason, in 2005, I introduced a bipartisan gang bill along 
with Rep. Mary Bono, and our counterpart Senate legislation was 
introduced by Senators Feinstein and Hatch. Our bill was a 
comprehensive effort to strengthen gang enforcement and prevention 
efforts. It included numerous tools to help law enforcement and 
prosecutors combat gang violence, and it provided resources to bolster 
the fight against gangs through law enforcement as well as intervention 
and prevention programs for at-risk youth. However, the prevention 
components of my bill were stripped out, numerous death penalties and 
mandatory minimums were added and the reintroduced bill was marked up 
in this Committee. I offered amendments to add back in the prevention 
elements, but these efforts failed. I was compelled to vote against the 
legislation.
    This year, Rep. Bono and I joined with Senators Feinstein and Hatch 
to introduce new gang legislation. During Senate Judiciary Committee 
markup, a number of changes were made to the Senate bill and the bill 
has since passed unanimously. I have also worked with my colleagues and 
with numerous outside organizations interested in this issue to revise 
our legislation. We introduced the revised legislation two weeks ago. I 
am proud to have Chairman Conyers' support throughout the process.
    The bill provides significant resources for evidence-based 
community-based gang prevention, intervention and reentry activities, 
and revises criminal penalties for gang members who are convicted of 
gang crimes. Significant funding in the bill is directed toward the 
High Intensity Gang Activity Area program, which targets resources in 
areas where gang activity is particularly prevalent. Half of the 
funding supports prevention and intervention initiatives through 
schools, community service providers and faith-based leaders to provide 
gang-involved or seriously at-risk youth with alternatives to gangs. 
The other half of the funding supports multi-jurisdictional criminal 
street gang enforcement teams and research to identify best practices 
among numerous gang prevention and intervention models to develop best 
practices.
    Our legislation also provides new funding for community-based gang 
prevention and intervention programs for both communities with newly 
emerging gang problems and those with decades-old issues. The bill also 
recognizes that education and jobs are critical to help gang-involved 
youth and young adults that are reentering society from the criminal 
justice system. The bill includes grants to help youth develop 
educational skills and enhance their long-term employability. Another 
grant program works with young adults to develop the skills and 
education to be placed in an apprenticeship in the construction 
industries. These prevention programs total a $700 million 
authorization over 5 years.
    H.R. 3547 is comprehensive legislation that recognizes that 
enforcement efforts are necessary to address our gang problem and 
authorizes $500 million over five years for suppression activities. The 
legislation includes funding for DOJ's Project Safe Neighborhoods anti-
gang initiative. It also expands the FBI Safe Street program to support 
gang enforcement. The bill also provides grants to state and local law 
enforcement and prosecutors for hiring, technology, equipment and 
training.
    The legislation also amends the criminal code to define ``criminal 
street gang'' and ``gang crime'' and sets out penalties for commission 
of a gang crime in furtherance of the gang and for recruitment. The 
bill also addresses violent crimes committed during drug trafficking. 
The bill limits possession of firearms by adjudicated gang members and 
terrorists, and it raises the statute of limitations on violent crimes 
and terrorism offenses.
    I am proud of the efforts we made in this legislation to 
comprehensively address the gang problem, and I believe this 
legislation takes important steps to provide resources and tools attack 
the problem at its roots. The legislation is supported by Members and 
organizations across the political spectrum from the Conference of 
Mayors to the National Association of Police Organizations, from Los 
Angeles Mayor Villaraigosa to California Governor Arnold 
Schwarzenegger.
    Thank you again Mr. Chairman for this opportunity to testify on my 
legislation.

    Mr. Scott. Thank you. We have been joined by the gentlelady 
from California, Ms. Waters.
    Mr. Cummings?

TESTIMONY OF THE HONORABLE ELIJAH E. CUMMINGS, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Thank you very much, Mr. Chairman.
    To Mr. Forbes and to the entire Committee, I appreciate 
this opportunity.
    And to you, Mr. Chairman, I want to thank you for your 
efforts to try to do some things to prevent some of the 
problems that we are now seeing in all of our communities. 
Today's hearing is extremely timely. Last week during the 
Congressional Black Caucus, annual legislative caucus, I hosted 
a panel issue forum that discussed a group of gangs and drug-
related gang activity and their impact in our communities.
    As you know, gangs are very real and a very serious threat 
which do not recognize geographical, socio-economic or racial 
boundaries. They are not just plaguing our inner cities. We are 
finding them in increasing numbers in the suburbs as well.
    In Baltimore City, gang activity has historically been 
limited to small neighborhood crews. But we are now seeing an 
alarming trend where these smaller groups are beginning to 
identify with the national gangs like the Bloods, the Crips and 
MS-13. If we do not stop this trend before it spreads, we will 
begin to see gang activity across the country that is 
comparable to many other cities.
    We must also address the allure of gangs to our children. 
The number one preventive action we can take to help our 
children avoid gang involvement is strong parenting. We must be 
active in their lives, whether it is helping them with their 
homework, eating dinner with them as a family or just talking 
to them, and as my mother would often say, keeping them busy in 
positive activities.
    It is also critical that parents learn the warning signs so 
that they might identify gang activity. While preventing young 
people from being lured into gangs is such an important part of 
addressing the crime problem plaguing our country, it is only 
one of many steps we need to take.
    One large part of reducing the violence in our communities 
is recognizing that without witnesses there will be no justice. 
I am referring to the conspiracy of silence associated with 
witness intimidation. Known murderers in Baltimore right now 
walk the streets because witnesses are too scared to come 
forward.
    I was motivated to address the issue of witness 
intimidation after the death of Angela and Carnell Dawson and 
their five children, ages 9 to 14. They lived only a few blocks 
from where I live.
    The entire family was incinerated in October of 2002, when 
their home was fire bombed in the middle of the night in 
retaliation for Ms. Dawson's repeated complaints to police 
about recurring drug trafficking in her East Baltimore 
neighborhood. In my home town of Baltimore, it is estimated 
that witness intimidation occurs in 90 percent, 90 percent of 
the cases.
    We must also combat the stop snitching movement spreading 
through our streets. And we must come together as a community 
to rise up against the campaign of intimidation and fear.
    Protecting witnesses is a core Government function. It is 
standard in the Federal system. And State and local prosecutors 
should have the same tools. Currently there is a great 
disparity between funding and witnesses services, if any, that 
are provided by local authorities and the Federal witness 
security program within the United States Marshal Service that 
operates on a $40 million budget.
    For example, the witness assistance program in my home town 
of Baltimore, which has the unfortunate distinction of being 
one of the most dangerous cities in the United States, is only 
able to obtain $300,000 per year from the state of Maryland. 
This is why I introduced H.R. 933, the Witness Security 
Protection Act of 2007, that authorizes $270 million over the 
next 3 years to enable States and local prosecutors to 
establish short-term witness protection programs.
    Priority will be given to prosecuting offices in States 
with an average of at least 100 murders during the immediate 
past 5 years. However, smaller entities also have a chance to 
receive funding.
    H.R. 933 and H.R. 3547, the Gang Abatement Intervention and 
Suppression Act, introduced by the gentleman from California, 
Mr. Schiff, will assist in correcting this inequity and allow 
us to demonstrate our commitment to our constituents and the 
justice system.
    In closing, please know that I appreciate this opportunity 
to testify before you. But please keep in mind that, without 
witnesses and the cooperation of the public, our criminal 
justice system and our system of justice simply cannot 
function.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Cummings follows:]
       Prepared Statement of the Honorable Elijah E. Cummings, a 
         Representative in Congress from the State of Maryland
Good Afternoon.
    Chairman Scott, Ranking Member Forbes, and Members of the 
Subcommittee, I appreciate the opportunity to testify before you 
regarding gang crime prevention.
    This is a very important issue to me. Just last week, during the 
CBC Annual Legislative Conference I hosted a three-panel issue forum 
that discussed the grip of gangs and drug-related gang activity, and 
their impact in our communities.
    Violent crime in the United States is on the rise nationwide.
    According to a report recently released by the FBI's Uniform Crime 
Reporting Program:

        <bullet>  robberies surged in 2006 by 7.2 percent;

        <bullet>  homicides rose by 1.8 percent; and

        <bullet>  violent crime overall rose by 1.9 percent.

    Taken together, 2005 and 2006 represent the first steady increase 
in violent crime since 1993.
    We need look no further than my hometown of Baltimore City, where 
we are headed for record-breaking incidents of violence.
    Yesterday, the Baltimore Sun reported that since January 1st there 
have been 231 homicides, eclipsing the rate set during the same period 
last year by 23. At this pace, it is conceivable that the City will 
regretfully reach 300 homicides by the end of the year. While this 
figure is significantly lower than the record-high 353 homicides in 
1993, the current situation is simply unacceptable.
    I find these statistics to be deeply troubling, and I know that 
they are attributable, in large part, to the ravages of gang activity 
in our communities.
    As you know, gangs are a very real and serious threat, which do not 
recognize geographical, socio-economic, or racial boundaries.
    They are not just plaguing our inner cities--we are finding them in 
increasing numbers in the suburbs, as well.
    In Baltimore City, gang activity has historically been limited to 
small, neighborhood crews, but we are now seeing an alarming trend 
where these smaller groups are beginning to identify with the national 
gangs like the Blood and the Crips.
    If we do not stop this trend before it spreads, we will begin to 
see gang activity across the country that is comparable to that of 
cities like Los Angeles, with whole generations affected.
    We must also address the allure of gangs to our children. It is 
time for us to come together as a community to minimize these risk 
factors. The number one preventive action we can take to help our 
children avoid gang involvement is strong parenting.
    We must be active in their lives, whether it is helping them with 
their homework, sitting down to eat dinner with them, or just talking 
to them about the events taking place in their daily lives.
    We must be proactive in knowing whom our children are befriending 
and what they do in their spare time. We must ensure that our children 
know they are loved and valued. We must keep informed of their progress 
in school and be in communication with their teachers. We must provide 
constructive activities to keep them engaged.
    It is also critical that parents learn the warning signs so that 
they might identify gang activity. The things our children say at the 
dinner table or to their friends on the phone or through the internet 
may be more than just harmless slang; they may be specific gang 
language. Likewise, a wardrobe filled with one particular color may not 
be indicative that the child merely favors it; it could be the color 
representing that child's gang.
    Most gang members go through progressive stages of involvement, and 
early detection can play a key role in helping our children before it 
is too late. It is hard for any parent to believe that his or her child 
may fall victim to this epidemic, but the risk is real. We must be 
prepared to recognize and prevent the risk.
    In my Congressional District, I have teamed up with Mr. Frank 
Clark, the Director of Gang Intervention and Investigation for the 
Maryland Department of Juvenile Services, to hold three gang prevention 
summits.
    Mr. Clark gives an excellent presentation for parents, teachers, 
and other members of the community to educate them about the signs and 
language of gang activity to make sure that we do not mistakenly 
dismiss dangerous communication from our children as harmless or 
useless slang.
    While preventing young people from being lured into gangs is such 
an important part of addressing the crime problem plaguing our country, 
it is only one of many steps we need to take.
    One large part of reducing the violence in our communities is 
through recognizing that without witnesses, there can be no justice. I 
am referring to the ``conspiracy of silence'' associated with witness 
intimidation. Known murderers walk the streets because witnesses are 
too afraid to come forward.
    I was motivated to address the issue of witness intimidation after 
the death of Angela and Carnell Dawson and their five children, ages 9 
to 14. The entire family was killed in October 2002, when their home 
was firebombed in retaliation for Mrs. Dawson's repeated complaints to 
the police about recurring drug trafficking in her East Baltimore 
neighborhood.
    Witness intimidation is a plague on our justice system. According 
to the National Institute of Justice, 51 percent of prosecutors in 
large jurisdictions find witness intimidation to be a major problem. 
These prosecutors also suspect that witness intimidation occurs in up 
to 75 to 100 percent of the violent crimes committed in gang-dominated 
neighbors. In my hometown of Baltimore City, it is estimated that 
witness intimidation occurs in 90 percent of the cases that are 
prosecuted.
    We must combat the ``Stop Snitchin'' movement spreading through our 
streets, and we must come together as a community to rise against this 
campaign of intimidation and fear.
    I have been working closely with the State's Attorney for Baltimore 
City Patricia Jessamy to help curb witness intimidation and spread the 
message that coming forward as a witness to a crime is not snitching--
it is the right thing to do. In fact, we are working on putting 
together a public service announcement to air throughout Baltimore 
encouraging witnesses to come forward and educating them about how to 
effectively do so without becoming the victim of retaliation.
    Protecting witnesses is a core government function. It is standard 
in the federal system and state and local prosecutors should have the 
same tools.
    Currently, there is a great disparity between funding and witness 
services (if any) that are provided by local authorities and the 
federal witness security program within the U.S. Marshals Services that 
operates on a $40 million budget.
    In comparison, the witness assistance program in my hometown of 
Baltimore City, which has the unfortunate distinction of being one of 
the most dangerous cities in the United States, is only able to obtain 
$300,000 per year from the state.
    This is why I introduced H.R. 933, the Witness Security and 
Protection Act of 2007 that authorizes $270 million over the next three 
years to enable state and local prosecutors who demonstrate a need for 
funds to protect witnesses in cases involving gangs or other violence 
to establish short-term witness protection programs.
    Improving protection for state and local witnesses will move us one 
step closer to alleviating the fears and threats to prospective 
witnesses and help safeguard our communities from violence. It is time 
that we show our commitment to our constituents and the justice 
system--because without witnesses, there can be no justice.
    In closing, please know that I appreciate the opportunity to 
testify before this Subcommittee. I also commend each of my colleagues 
on the panel for their work in the area of gang prevention and 
awareness.

    Mr. Scott. Thank you. I think that is a recess. So it 
wasn't a vote, so we are not in as much hurry as we thought we 
were when the bells went off.
    I want to recognize the gentlelady from Ohio, Ms. Sutton, 
and her presence.
    The gentleman from California, Mr. Baca?

   TESTIMONY OF THE HONORABLE JOE BACA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Baca. Good afternoon, Mr. Chairman Scott and Ranking 
Member Forbes and distinguished Members of the Subcommittee. I 
am pleased to present testimony today in behalf of H.R. 1069, 
the Mynisha Law.
    This bill serves two primary purposes. First, it directs 
the attorney general to review an application from cities 
wanting to be designated as comprehensive gang prevention and 
relief areas.
    Second, it establishes an inter-agency gang prevention task 
force where Federal agencies will coordinate efforts focused on 
gang prevention. I would like to share with you a sad story 
behind the creation of the Mynisha Law.
    Senator Boxer and I became involved with a local anti-gang 
group called Mynisha's Circle that was formed in the wake of a 
killing of an 11-year-old named Mynisha Crenshaw, who died on 
November 13, 2005. Young Mynisha was from my district in San 
Bernardino, California.
    She was killed while eating Sunday dinner with her family, 
after gang members shot at the Crenshaw home located in Cedar 
Apartment in the Del Rosa neighborhood. Another young, innocent 
life was lost due to gang violence. And there are 24,500 gangs 
operating in the United States.
    These acts of violence are not uncommon for city streets. 
Young people regularly claim that they live in the world of 
domestic warfare.
    We hear about the devastation happening in Iraq. And we 
honor the soldiers fighting for freedom. But are we not giving 
the necessary tools to young people here in our own country to 
avoid gang problems? We are willing to provide those in Iraq. 
But are we willing to provide the tools for those that are 
right here in the United States to fight gangs?
    We do not hear about the mother who has to bury the young 
son or daughter. We do not see the elementary, middle school 
aged children who are recruited to join the ranks of gang 
members for sisterhood. And after Mynisha's death, I am proud 
to say that our community did unite. We came together and vowed 
to find solutions to gang violent crisis. Mynisha's Circle was 
created as a forum to address this issue.
    Senator Boxer, with the help of Reverend Beamon and Steve 
Lambert and other members of the Mynisha's Circle created S. 
2671, Mynisha Law. I am proud to sponsor the House companion to 
the Senate bill.
    This bill is critical to fight against gangs. It creates a 
Federal task force with members from the Departments of 
Justice, Education, Labor, Health, Human Services, Housing and 
Urban Development. This task was to create a comprehensive 
national prevention strategy that would focus on all aspects to 
fight against gangs from early childhood intervention to at 
risk youth intervention, literacy, employment and community 
policing.
    By allowing the attorney general to decide which city has 
the highest gang activity, many communities where gang violence 
is growing or is out of control will have a newfound resource 
to combat the issue. Anyone who thinks this bill is unnecessary 
or that gang violence is no longer a problem in America is 
wrong, and I state, is wrong.
    There are currently an estimated 24,500 gangs operating in 
the United States. Gang violence and drug trafficking remains a 
serious problem throughout the country causing injuries and 
death to innocent victims and too often, children that will 
never fulfil their lives.
    According to the National Drug Threat Assessment, criminal 
street gangs are responsible for the distribution of much of 
the cocaine, methamphetamines, heroine, and other illegal drugs 
throughout the United States. I thank Chairman Scott for your 
leadership and your support.
    I thank Reverend Schiff and others for including the 
Mynisha provision in the gang prevention bill. It is important 
that we explore all avenues, and I state, that we explore all 
avenues, in addressing the issue because the cause of inaction, 
I state the cause of inaction is too high.
    We cannot forget that we are fighting for the future to 
make tomorrow a better and safe place for our children. We want 
our children to fulfil their lives. We want our children to 
have a better quality of life, and we want our neighborhoods to 
have a better quality of life.
    I yield back the balance of my time. And I thank you, Mr. 
Chairman, for having this important hearing.
    [The prepared statement of Mr. Baca follows:]
   Prepared Statement of the Honorable Joe Baca, a Representative in 
                 Congress from the State of California
    Good afternoon Chairman Scott, Ranking Member Forbes, and 
distinguished members of the Subcommittee. I am pleased to present 
testimony today on behalf of HR 1069, Mynisha's Law.
    This bill serves two primary purposes: first, it directs the 
Attorney General to review applications from cities wanting to be 
designated as Comprehensive Gang Prevention and Relief Areas; and 
second, it establishes an Interagency Gang Prevention Task Force where 
federal agencies will coordinate efforts focused on gang prevention.
    I would like to share with you the sad story behind the creation of 
Mynisha's Law.
    Senator Barbara Boxer and I became involved with a local anti-gang 
group called Mynisha's Circle that was formed in the wake of the 
killing of eleven year old Mynisha Crenshaw, who died on November 13, 
2005.
    Young Mynisha was from my district, in San Bernardino, California. 
She was killed while eating Sunday dinner with her family after gang 
members shot at the Crenshaw home, located at the Cedarwood Apartments 
in the Del Rosa neighborhood.
    Another young, innocent life was lost due to gang violence.
    These acts of violence are not uncommon for city streets. Young 
people regularly claim they live in a world of domestic warfare.
    We hear about the devastation happening in Iraq and we honor the 
soldiers fighting for our freedom. But, we are not giving the necessary 
tools to young people here, in our own country, to avoid gang life.
    We do not hear about the mothers who have to bury there young sons 
and daughters. We do not see the elementary and middle-school aged 
children who are recruited to join the ranks of gang brother and 
sisterhood.
    After Mynisha's death, I am proud to say that our community did 
unite. We came together and vowed to find solutions to the gang 
violence crisis. Mynisha's Circle was created as a forum to address 
this issue.
    And Senator Boxer, with the help of Rev. Reggie Beamon, Steve 
Lambert and other members of Mynisha's Circle, created S. 2671 
Mynisha's Law. I am proud to sponsor the House companion to the Senate 
bill.
    This bill is crucial to the fight against gangs.
    It creates a Federal Gang Task Force--with members from the 
Departments of Justice, Education, Labor, Health and Human Services, 
and Housing and Urban Development.
    This task force would create a comprehensive national gang 
prevention strategy that would focus on all aspects of the fight 
against gangs--from early childhood intervention to at-risk youth 
intervention, literacy, employment, and community policing.
    By allowing the Attorney General to decide which cities have the 
highest gang activity, many communities where gang violence is growing 
or is out of control will have newfound resources to combat this issue.
    Anyone who thinks this bill is unnecessary, or that gang violence 
is no longer a problem in America is wrong. There are currently an 
estimated 24,500 gangs operating within the United States. Gang 
violence and drug trafficking remain serious problems throughout the 
country, causing injury and death to innocent victims, and too often 
children.
    According to the National Drug Threat Assessment--criminal street 
gangs are responsible for the distribution of much of the cocaine, 
methamphetamine, heroin, and other illegal drugs throughout the United 
States.
    I thank you, Chairman Scott for your leadership and support, and I 
thank Rep. Schiff and others for including Mynisha's provisions in your 
gang prevention bills.
    It is important that we explore all avenues in addressing this 
issue because the cost of inaction is too high. We cannot forget that 
we are fighting for the future, to make tomorrow a better and safer 
place for our children. Thank you.

    Mr. Scott. Thank you, Mr. Baca.
    Mr. Lampson?

       TESTIMONY OF THE HONORABLE NICHOLAS V. LAMPSON, A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Lampson. Thank you, Mr. Chairman Scott, Ranking Member 
Forbes, for taking our testimony today regarding our efforts to 
catch, prosecute, and incarcerate gang members.
    Gang participation has reached obviously unacceptable 
levels in our country. And it is threatening the safety and 
security of big cities as well as small towns. And according to 
the Department of Justice, 82 percent of police departments 
serving large cities have reported youth gangs while the DOJ 
also reports gang activity has been increasing in smaller 
cities since 1999.
    In my district in Houston, crime has been on the rise. FBI 
reports growing trends of murder, rape and assault from 2005 to 
2006. And according to law enforcement officials, much of this 
increase in crime in Houston is related to the relocation of 
street gangs and drug traffickers from New Orleans following 
Hurricane Katrina.
    The New Orleans gangs are extremely violent and intimidate 
many of the established Houston gangs. As such, gang-related 
crime, particularly gang-related murders, has increased 
significantly. Additionally, New Orleans gangs have expressed 
intent to take over large portions of the Houston drug market, 
which could lead to further violence. We must be vigilant to 
protect our communities from these thugs and criminals.
    Recently, I introduced the Prosecutorial Tools Improvement 
Act of 2007, which will make our homes safer by providing 
greater latitude and resources to our Nation's prosecutors to 
go after the gangs with the fullest extent of the law.
    H.R. 3462 protects families and communities by enhancing 
criminal penalties for violent felonies committed during and in 
relation to drug trafficking crimes. According to the National 
Drug Intelligence Center, NDIC, high levels of violent crime in 
Houston, Texas are ``closely associated with the distribution 
and abuse of illicit drugs, particularly crack cocaine and 
methamphetamine. Crack cocaine is the drug most associated with 
violent and property crime.''
    The NDIC affirms that gangs involved in drug crimes are 
responsible for violent assaults, car jackings, drive-by 
shootings, home invasions, robberies and firearm violations. 
They commit these acts to protect and to expand their drug 
operations. These criminal activities must be stopped. And my 
legislation sends a strong and clear message, ``We will catch 
you, and we will put you in jail.''
    Texas highways have become thoroughfares for the drug 
trade. Unfortunately, Houston has become the on ramp. The Texas 
Highway Patrol leads the Nation in criminal arrests and 
seizures of drugs and in currency. Between 60 and 80 percent of 
all drugs pass through Houston alone.
    My bill imposes stiff penalties for crimes committed by 
drug traffickers and gangs that participate in drug 
trafficking. The Prosecutorial Tools Improvement Act of 2007 
mandates a life sentence for incidents of murder or kidnapping 
that are in relation to drug trafficking.
    Other violent crimes will result in imprisonment for a 
minimum of 30 years. And crimes such as conspiracy to commit a 
violent crime will result in imprisonment for a minimum of 10 
to 20 years. By instituting harsher penalties and strengthening 
the consequences for gang involvement prosecutors will be given 
the tools they need to pursue and punish modern gangs.
    According to the National Center for Missing and Exploited 
Children, NCMEC, the income drug trafficking provides for gangs 
serves to attract many young people, especially runaways and 
homeless children. The NCMEC has outlined that gang activity 
when combined with trafficking of crack or other drugs is 
``becoming increasingly involved in prostitution of youth,'' 
which can prove to be very profitable for gangs.
    As co-chairman and founder of the Congressional Caucus on 
Missing and Exploited Children, this is an issue of the utmost 
importance to me. As a father and grandfather, I know that the 
protection of our children is paramount. We can deter our 
Nation's children from joining gangs by imposing stiff 
penalties for gang activity, as well as providing opportunities 
for young people in their communities that keep them off the 
street.
    And finally, Mr. Chairman, my bill increases the ability 
for our law enforcement agencies to pursue terrorists by 
increasing the statute of limitations from 8 to 10 years. 
Terrorism is the greatest threat we face as a free Nation. Time 
should not stand between terrorists and justice. We must ensure 
that prosecutors have every tool they need to fight terrorism.
    Gang cause irreparable damage to communities and families 
throughout the United States. My bill gives prosecutors the 
tools they need to stop gang violence from invading our 
neighborhoods.
    Violent gang complaints are up 38 percent since 2002. But 
convictions have only increased by 12 percent. Clearly, we need 
more tools and resources to combat and stop gangs. This is 
exactly what my bill, the Prosecutorial Tools Improvement Act, 
does.
    I thank you for this important hearing and for listening to 
our testimony, Mr. Chairman and Committee.
    [The prepared statement of Mr. Lampson follows:]
      Prepared Statement of the Honorable Nicholas V. Lampson, a 
           Representative in Congress from the State of Texas
    Chairman Scott, Ranking Member Forbes, and Members of the 
Subcommittee: thank you for taking my testimony today about my efforts 
to catch, prosecute and incarcerate gang members.
    Gang participation has reached unacceptable levels in our country 
and is threatening the safety and security of big cities, as well as 
small towns. According Department of Justice, 82% of police departments 
serving large cities have reported youth gangs while the DOJ also 
reports gang activity has been increasing in smaller cities since 1999.
    In my district, in Houston, crime has been on the rise, FBI reports 
growing trends of murder, rape and assault from 2005 to 2006. According 
to law enforcement officials, much of this increase in crime in Houston 
is related to the relocation of street gangs and drug traffickers from 
New Orleans following Hurricane Katrina.
    The New Orleans gangs are extremely violent and intimidate many of 
the established Houston gangs. As such, gang-related crime, 
particularly gang-related murders, has increased significantly. 
Additionally, New Orleans gangs have expressed intent to take over 
large portions of the Houston drug market, which could lead to further 
violence.
    We must be vigilant to protect our communities from these thugs and 
criminals. Recently I introduced the Prosecutorial Tools Improvement 
Act of 2007, which will make our homes safer by providing greater 
latitude and resources to our nation's prosecutors to go after gangs 
with the fullest extent of the law.
    H.R. 3462 protects families and communities by enhancing criminal 
penalties for violent felonies committed during and in relation to drug 
trafficking crimes. According to the National Drug Intelligence Center 
(NDIC), high levels of violent crime in Houston, Texas are ``closely 
associated with the distribution and abuse of illicit drugs, 
particularly crack cocaine and methamphetamine. Crack cocaine is the 
drug most associated with violent and property crime.''
    The NDIC affirms that gangs involved in drug crimes are responsible 
for violent ``assaults, carjacking, drive-by shootings, home invasions, 
robberies, and firearms violations.'' They commit these acts ``to 
protect and expand their drug operations.'' These criminal activities 
must be stopped. My legislation sends a strong and clear message--we 
will catch you, and we will put you in jail.
    Texas' highways have become thoroughfares for the drug trade, 
unfortunately Houston has become the on ramp. The Texas Highway Patrol 
leads the nation in criminal arrests and seizures of drugs and 
currency, between 60 and 80 percent of drugs pass through Houston 
alone.
    My bill imposes stiff penalties for crimes committed by drug 
traffickers and gangs that participate in drug trafficking. The 
Prosecutorial Tools Improvement Act of 2007 mandates a life sentence 
for incidents of murder or kidnapping that are in relation to drug 
trafficking. Other violent felonies will result in imprisonment for a 
minimum of 30 years. And crimes such as, conspiracy to commit a violent 
crime, will result in imprisonment for a minimum of 10 to 20 years.
    By instituting harsher penalties, and strengthening the 
consequences for gang involvement, prosecutors will be given tools they 
need to pursue and punish modern gangs.
    According to the National Center for Missing and Exploited 
Children, NCMEC, the income drug trafficking provides for gangs serves 
to attract many young people, especially runaways and homeless 
children.
    NCMEC has outlined that gang activity, when combined with the 
trafficking of crack or other drugs is ``becoming increasingly involved 
in the prostitution of youth,'' which can prove to be very profitable 
for gangs.
    As co-chairman and founder of the Congressional Missing and 
Exploited Children Caucus, this is an issue of the utmost importance to 
me. As a father and grandfather, I know that the protection of our 
children is paramount. We can deter our nation's children from joining 
gangs, by imposing stiff penalties for gang activity, as well as 
providing opportunities for young people in their community that keeps 
them off the street.
    Finally, my bill increases the ability for our law enforcement 
agencies to pursue terrorists by increasing the statute of limitations 
from eight years to ten. Terrorism is the greatest threat we face as a 
free nation, time should not stand between terrorists and justice. We 
must ensure that prosecutors have every tool they need to fight 
terrorism.
    Gangs cause irreparable damage to communities and families 
throughout the United States. My bill gives prosecutors the tools they 
need to stop gang violence from invading our neighborhoods. Violent 
Gang complaints are up 38 percent since 2002, but convictions have only 
increased 12 percent. Clearly, we need more tools and resources to 
combat and stop gangs. That is exactly what my bill, the Prosecutorial 
Tools Improvement Act, does.
    Thank you.

    Mr. Scott. Thank you.
    Mr. McNerney?

TESTIMONY OF THE HONORABLE JERRY McNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Thank you, Chairman Scott, Ranking Member 
Forbes and distinguished Members on the Subcommittee on Crime, 
Terrorism, and Homeland Security. I appreciate the opportunity 
to speak here today about gang activity and about my bill, H.R. 
3474, the National Safe Streets Gang Crime Prevention Act, 
which will provide law enforcement agencies across the country 
the tools they need to fight gangs and prevent crime.
    My constituents and individuals across the Nation are 
fighting to protect their communities, schools and children by 
taking strong stands against gangs. Unfortunately, the growth 
in gangs and gang activities shows that the existing 
enforcement mechanisms alone are not sufficient to stop the 
gangs. And in fact, the Ranking Member and the Chairman both 
pointed out the difficulties with our current system.
    We also need to establish strong prevention tools for our 
authorities to manage and reduce gangs and gang-related 
problems. We need to stop gang crimes before they get started.
    We should provide all levels of law enforcement the 
necessary resources to prevent gang activity. And one of the 
best things we can do is share information and work together.
    Gang activity does not stay neatly within one jurisdiction. 
It spreads out across geographic boundaries. Therefore, law 
enforcement officials need a mechanism to share intelligence 
and track crime. I have witnessed what this level of 
cooperation can do locally to prevent gang activity.
    In my district, the city of Stockton Police Department 
coordinated efforts with the DEA, the FBI, and the ATF and 
other local jurisdictions to target suspect drug traffickers 
and gang operations in San Joaquin County. Impressively, these 
efforts have resulted in 51 arrests since January. It is clear 
when law enforcement agencies share information and work 
together they can reduce gang activities.
    Inter-agency cooperation is critical to preventing crimes. 
That is why I introduced the Safe Streets Gang Crime Prevention 
Act of 2007. My bill creates a strong gang national database to 
allow law enforcement officials nationwide and at all levels of 
law enforcement to share information and track gang members and 
their activities.
    The data will contain information on gangs, gang members, 
firearms, criminal activities, vehicles and other background 
information that can help solve crimes. This database will be 
accessible to law enforcement officers nationwide to prevent 
gang crime.
    Additionally, my bill provides funding to expand the FBI's 
Safe Street Program, which has also been mentioned this 
afternoon, which conducts long-term investigations of violent 
gangs in coordination with other law enforcement agencies. This 
legislation will have a significant impact on reducing gang 
activity.
    Since coming to Congress I have seen firsthand how Federal, 
State, and local law enforcement officers have done an 
outstanding job in their fight against gang crime. In fact, 
just this weekend the city of Manteca Police Department's gang 
unit discovered a large cache of weapons and was able to arrest 
the documented gang member who was responsible. Yet despite 
some successes, gang crimes still constitute a significant 
threat.
    In the largest city in my district there are at least 84 
gangs and hundreds more in the state of California. With this 
level of membership and activity, information sharing is 
absolutely vital.
    Mr. Chairman, gang crime can be prevented if we work 
together. I thank you for this opportunity to testify. That 
concludes my written statement.
    I want to say that your comments have been useful. There 
have been many things that have been tried in the past. We need 
to be open to new ideas. And that is exactly what this panel is 
trying to produce. I yield back the balance of my time.
    [The prepared statement of Mr. McNerney follows:]
Prepared Statement of the Honorable Jerry McNerney, a Representative in 
                 Congress from the State of California
    Thank you Chairman Scott and Members of the Subcommittee on Crime, 
Terrorism, and Homeland Security: I appreciate the opportunity to speak 
today about gang crime, and my bill, H.R. 3474, the National Safe 
Streets Gang Crime Prevention Act, which provides law enforcement 
agencies across the country the tools they need to fight gangs and 
prevent crime.
    My constituents, and individuals across the nation, are fighting to 
protect their communities, schools, and children by taking a strong 
stand against gangs.
    Unfortunately, growth in gangs and gang activities shows that 
existing enforcement mechanisms alone are not sufficient to stop gangs. 
We also need to establish strong prevention tools for our authorities 
to manage and reduce gangs and gang related problems. We need to stop 
gang crime before it gets started.
    We should provide all levels of law enforcement the necessary 
resources to prevent gang activity, and one of the best things we can 
do is share information and work together.
    Gang activity does not stay neatly within one jurisdiction; it 
spreads across geographic boundaries. Therefore, law enforcement 
officials need a mechanism to easily share intelligence and track 
crime.
    I have witnessed what this level of cooperation can do locally to 
prevent gang activity. In my district, the City of Stockton Police 
Department coordinated efforts with the DEA, FBI, ATF, and other local 
jurisdictions to target suspected drug traffickers and gangs operating 
in San Joaquin County. Impressively, these efforts have resulted in 51 
arrests since January.
    It's clear: when law enforcement agencies share information and 
work together they can reduce gang activity.
    Interagency coordination is critical to preventing crimes.
    That is why I introduced the Safe Streets Gang Crime Prevention Act 
of 2007. My bill creates a National Gang Activity Database to allow law 
enforcement officials nationwide--and at all levels--to share 
information and track gang members and their activities.
    The database will contain information on gangs, gang members, 
firearms, criminal activities, vehicles, and other background 
information that can help solve crimes. This database will be 
accessible to law enforcement officials nationwide to help prevent gang 
crime.
    Additionally, my bill provides funding to expand the FBI's Safe 
Streets Program, which conducts long-term investigations of violent 
gangs in coordination with other law enforcement agencies.
    This legislation will have a significant impact on reducing gang 
activity.
    Since coming to Congress, I have seen firsthand how federal, state, 
and local law enforcement officers have done an outstanding job in 
their fight against gang crime. I cannot commend them enough. In fact, 
just this weekend, the Manteca Police Department's Gang Unit discovered 
a large cache of weapons and was able to arrest the documented gang 
member who was responsible.
    Yet despite some successes, gang crime still constitutes a 
significant threat to our nation.
    In the largest city in my district, there are at least 84 gangs and 
hundreds more in the state of California. With this level of membership 
and activity, information sharing is absolutely vital.
    Mr. Chairman, gang crime can be prevented if we work together.
    I thank you again for this opportunity to testify before the 
Subcommittee. I yield back the balance of my time.

    Mr. Scott. Thank you.
    Mr. Dent?

TESTIMONY OF THE HONORABLE CHARLES W. DENT, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Dent. Thank you, Chairman Scott, Ranking Member Forbes, 
Members of the Subcommittee. I truly appreciate this 
opportunity for allowing me to come before you today to discuss 
H.R. 3152, the Anti-Gang Task Force Act of 2007. This 
legislation will help our local law enforcement communities 
combat the scourge of gang violence.
    It authorizes $20 million for each fiscal years 2008 
through 2011 to establish new multi-jurisdictional anti-gang 
task forces bringing together State and local prosecutors with 
Federal officials from the FBI, the DEA, the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, DHS, as well as others.
    Gangs, as you all know, are mobile, and they often cross 
jurisdictional lines in order to facilitate the dealing of 
drugs or to avoid detection by local law enforcement 
authorities. And providing funds to the different 
municipalities may, with Federal assistance, pool resources to 
track, combat, and prosecute gang activity and will be a major 
assist to the quality of life in communities that are plagued 
by this gang violence. A multi-jurisdictional approach is 
clearly necessary in order to stop the proliferation of gang 
violence and gang activity.
    My district encompasses a good portion of what is called 
the Route 222 corridor. This corridor bisects five cities: 
Easton, Bethlehem, Allentown, Reading and Lancaster.
    They are located in four Southeastern and East Central 
Pennsylvania counties. It is uniquely situated in that it is 
linked directly to New York City approximately about 80 miles 
due east of the Lehigh Valley via Interstate 78 and through 
other easily accessible roads, including Route 222 to 
Philadelphia, which is about 60 miles due southeast of the 
Lehigh Valley area where I live.
    Gang violence along the Route 222 corridor primarily 
involving drug trafficking and armed robberies dates back more 
than a decade. There has been a chronic problem infecting each 
of the five cities within this corridor. And these are small to 
mid-sized cities, Allentown being the largest, about 110,000.
    The roadways that have allowed commerce to thrive in this 
region have also strongly benefited these gangs who can move 
between the cities with relative ease thereby making their 
operations much more difficult to detect and to track. As a 
result, the 222 corridor has been plagued by this insidious 
gang activity.
    Each of the cities in the corridor has a number of home-
grown violent gangs, most of which are involved in drug 
trafficking. According to the United States attorney's office 
for the eastern district of Pennsylvania, these gangs such as 
the Second Street Gang in Allentown and the Tenth Street Gang 
in Reading, usually operate in relatively small areas of their 
respective cities and use violence to control and defend their 
drug trafficking operations.
    While these gangs generally do not use symbols or dress 
similarly to identify themselves, they are often as violent as 
their national counterparts. And many gang members, according 
to the U.S. attorney's office, are illegal aliens who migrate 
to the 222 corridor in the Southwest and New York City and join 
existing gangs.
    H.R. 3152, the Anti-Gang Task Force Act of 2007, would 
bring Federal, State and local law enforcement agencies 
together to help stop multi-jurisdictional gang activities in 
places like the 222 corridor. Further, 3152 would be a nice 
complement to a recent anti-gang initiative funded through the 
Project Safe Neighborhood Program in our area. And that Project 
Safe Neighborhood initiative involves a cooperative law 
enforcement effort between the counties and cities along the 
corridor.
    For the reasons I described earlier, I push very hard to 
make sure the corridor was one of six locations included in 
this $15 million comprehensive anti-gang initiative undertaken 
by the Department of Justice. The initiative has a three-
pronged approach to combating gang violence: first, the 
prevention of gang affiliation; second, enforcement of existing 
laws; and third, the rehabilitation of gang members seeking to 
reenter society.
    And again, Mr. Chairman Scott, I commend the work that your 
Subcommittee is doing to curb gang violence. And I really want 
to thank you for providing me this opportunity to discuss this 
legislation. And I hope that you and the rest of the 
Subcommittee will be supportive of these endeavors in the 
future. And I thank you again. And I would like to yield back.
    [The prepared statement of Mr. Dent follows:]
 Prepared Statement of the Honorable Charles W. Dent, a Representative 
               in Congress from the State of Pennsylvania
    Chairman Scott, Ranking Member Forbes, and Members of the 
Subcommittee: Thank you for allowing me to come before you today to 
discuss HR 3152, the Anti-Gang Task Force Act of 2007.
    This bill will help our local law enforcement communities combat 
the scourge of gang violence. It authorizes $20m for each of Fiscal 
Years 2008 through 2011 to establish new multi-jurisdictional anti-gang 
task forces, bringing together state and local prosecutors with federal 
officials from the FBI, DEA, the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives (BATFE), DHS, and others.
    Gangs are mobile and they often cross jurisdictional lines in order 
to facilitate the dealing of drugs or to avoid detection by local law 
enforcement authorities. Providing funds so that different 
municipalities may, with federal assistance, pool resources to track, 
combat, and prosecute combat gang activity will be a major assist to 
the quality of life in communities that are plagued by gang violence.
    A multi-jurisdictional approach is clearly necessary in order to 
stop the proliferation of gang violence and gang activity. My District 
encompasses a good portion of what is called the Route 222 corridor. 
This corridor bisects five cities--Easton, Bethlehem, Allentown, 
Reading, and Lancaster--located in four southeast Pennsylvania 
counties. It is uniquely situated, in that it is linked directly to New 
York City, approximately eighty miles away via Interstate 78, and, 
through other easily accessible roads (including Route 222), to 
Philadelphia, which is 60 miles to the southeast.
    Gang violence along the 222 corridor, primarily involving drug 
trafficking and armed robberies, dates back more than a decade and has 
been a chronic problem infecting each of the five cities within the 
corridor. The roadways that have allowed commerce to thrive in the 
region have also strongly benefited the gangs, who can move between the 
cities with relative ease, thereby making their operations much more 
difficult to detect and to track.
    As a result, the 222 corridor has been plagued by gang activity. 
Each of the cities in the corridor has a number of home-grown violent 
gangs, most of which are involved in drug trafficking, according to the 
United States Attorney's Office for the Eastern District of 
Pennsylvania. These gangs, such as the 2nd (Street) in Allentown and 
the 10th Street Gang in Reading, usually operate in relatively small 
areas of their respective cities and use violence to control and defend 
their drug trafficking operations. While these gangs generally do not 
use symbols or dress similarly to identify themselves, they are often 
as violent as their national counterparts. And many gang members are 
illegal aliens who migrate to the 222 Corridor from the southwest and 
New York City and join existing gangs.
    HR 3157, the Anti-Gang Task Force Act of 2007, would bring federal, 
state, and local law enforcement agencies together to help stop multi-
jurisdictional gang activity in places like the Route 222 corridor. 
Further, HR 3157 would be a nice complement to a recent anti-gang 
initiative funded through the Project Safe Neighborhoods (PSN) program 
in our area.
    This PSN initiative involves a cooperative law enforcement effort 
between the counties and cities along the corridor. For the reasons I 
described earlier, I pushed very hard to make sure that the Corridor 
was one of the six locations included in this $15 million Comprehensive 
Anti-Gang Initiative undertaken by the Department of Justice. The 
initiative has a three-pronged approach to combating gang violence: 
prevention of gang affiliation, enforcement of existing laws, and the 
rehabilitation of gang members seeking to re-enter society.
    Mr. Chairman, I commend the work that your Subcommittee to doing to 
curb gang violence, and I want to thank you for providing me the 
opportunity to talk about the Anti-Gang Task Force Act of 2007 and the 
Project Safe Neighborhoods Anti-Gang initiative. I hope that you and 
the rest of the Subcommittee will be supportive of both of these 
endeavors in the future.
    Thank you, I yield back the balance of my time.

    Mr. Scott. Thank you.
    Mr. Reichert?

TESTIMONY OF THE HONORABLE DAVID G. REICHERT, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Reichert. Thank you, Mr. Chairman. And I would like to 
thank you and the Ranking Member for holding this hearing. I 
find myself a little bit confused. And that is because my world 
before this world was in law enforcement, 33 years in the King 
County Sheriff's office, starting out as a patrol officer and 
now finding myself in this position here in Congress trying to 
construct laws that might help those that I was recently in the 
ranks and members of the ranks.
    Now I find myself also in a different position this 
afternoon, testifying instead of asking the questions. So I am 
happy to be here today, though.
    And I want to associate myself with all the comments that 
have been made by each of the Members who have testified and 
also, sir, with your opening statement and also the Ranking 
Member's opening statements. We all recognize there is a gang 
problem here in the United States.
    It is not a new problem. It has been an old problem, one 
that I dealt with in my 33 years in law enforcement.
    I would like to mention, though, that, you know, we can 
rattle off all these figures and all these statistics. And we 
think about our role here and your role in this Committee in 
hearing our testimony. And we go about our political world, as 
Mr. Forbes said. We sometimes lose sight of the fact we are 
talking about lives here, human lives.
    I have seen the death on the streets as a cop on the 
streets. And not only young people who have lost their lives, 
but police officers. And every day this is happening in our 
Nation.
    And so, if there was a time, if there ever was a time for 
us to come together as a party, a party, an American party, 
this is the time. You and this Committee listening to the 
testimony of each one of us today in presenting our ideas and 
thoughts on legislation that can help our local community stop 
this killing. This is the time.
    And this really is not a part of my written statement, but 
I just felt compelled to share this with you. Please come 
together. Look at these bills. Add the language that you would 
seem to consider to be language that you would want to include 
in a bill that would be powerful enough to help people across 
this country end this murder, end the drug abuse, end the 
ripping and tearing apart of families.
    We all know that gangs are an increasing threat to safety. 
We all know that there is 25,000 gangs active. We know that 
there is 3,000 jurisdictions across the country affected by 
gangs. We know there is 750,000 to 850,000 gang members here in 
the United States. That is larger than all but six armies in 
the world.
    We have got to do something today. And to make matters 
worse, they are going after our junior high and our grade 
school kids now. Gang members are going after junior high, 12, 
13-year-old kids and grade school kids. We have got to do 
something today.
    You know, in order to become a gang member, you have to go 
through what some people see as a hazing. But it is called the 
jump you. Gangs jump in--and maybe you have heard about this. 
They jump on young people, and they beat the holy living you 
know what out of them.
    They beat them, and they torture them. And then they become 
gang members. And there are some other things that they do, 
too, that I won't describe. But that is the process our young 
people are going through in this country today.
    One of the officers that I knew from a police department in 
the county that I was sheriff of made a traffic stop one night, 
got out of his car and was greeted by a gang member and had a 
bullet put in his head. That was the end of his life and the 
end of his family's.
    The influence of gangs has reached beyond our own 
communities. Gangs have become increasingly sophisticated in 
their tactics and worked with crime organizations across the 
globe bringing guns and drugs into this country and onto our 
streets. Drug gangs are now the primary distributor of illegal 
narcotics in the United States. And these international drug 
cartels now number in thousands across the city, the State and 
the national boundaries.
    Some gangs collect millions of dollars per month selling 
illegal drugs, trafficking weapons, operating prostitution 
rings and selling stolen property. These gangs are also 
directly linked with human trafficking, I.D. theft, fraud, 
violent maiming, assault and murder.
    In 2001, there were over 631 gang-related homicides in the 
United States. Many police departments in our Nation are not 
prepared to handle this problem. They don't know how to address 
this growing threat.
    Across the Nation gang statistics are maintained 
sporadically at best. Our local law enforcement officials who 
are on the front line of this battle cannot win the war if they 
don't have a clear understanding of what they are up against.
    My bill, H.R. 367, the Gang Elimination Act, would require 
the attorney general to develop a national strategy to 
eliminate the gang epidemic plaguing our neighborhoods. 
Specifically, this legislation will identify and target the 
three international drug gangs that present the greatest threat 
to the United States measuring their ties to terrorist 
organizations, the amount of drugs they import and distribute, 
and the threat they pose to our children.
    In essence, H.R. 367 creates a gang ``most wanted'' list. 
With these three gangs put on notice, we will be able to 
identify their members and aggressively pursue them.
    And I agree, again, with some of the other comments that 
have been made. We need to do this by communicating, sharing 
our information, partnering not only with law enforcement 
organizations across this country, but partnering with our 
community and social agencies and bringing everyone together 
who touches this problem to address it from the very beginning.
    And I appreciate the opportunity to share my thoughts, Mr. 
Chairman. And I yield back.
    [The prepared statement of Mr. Reichert follows:]
Prepared Statement of the Honorable David G. Reichert, a Representative 
                in Congress from the State of Washington

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you very much. And I would like to thank 
all of our witnesses for their testimony today. Members may 
have written questions which we will forward to you, ask you to 
answer them promptly. Without objection, the hearing record 
will remain open for 1 week for submission of additional 
material.
    And so, I would like to thank each and every one of our 
witnesses. Thank you.
    The next panel will come forward.
    Our first witness in the second panel is Brian W. Walsh, 
senior legal research fellow, Center for Legal and Judicial 
Studies at the Heritage Foundation. He directs the Heritage's 
project on countering the abuse of criminal law and criminal 
process, particularly at the Federal level. His work also 
focuses on the efforts to ensure that national and homeland 
security measures include protections for constitutional and 
other civil liberties.
    Before joining the Heritage Foundation, he was an associate 
with the Washington office of Kirkland and Ellis. And he served 
as a law clerk for Judge Bowman of the U.S. Court of Appeals 
for the 8th Circuit. He is a graduate from Regent University 
Law School and holds a bachelor's degree in physics from the 
University of Colorado.
    Our next witness will be the Honorable Jerrauld C. Jones, 
judge of the Norfolk Juvenile and Domestic Relations Court in 
Norfolk, Virginia. He is one of the few people in Virginia 
history to hold leadership positions in each branch of 
Government.
    Prior to his appointment on the bench, he was the director 
of the Department of Juvenile Justice for the Commonwealth of 
Virginia. As head of the youth authority, he was responsible 
for the incarceration, rehabilitation and transitional reentry 
of juvenile offenders in the State.
    He also served eight terms as a delegate in the Virginia 
General Assembly, where he oversaw many positive and 
progressive changes within the juvenile justice system. He is a 
graduate of Princeton University and the School of Law at 
Washington and Lee University.
    Our next witness will be Kevin Pranis, researcher of the 
Justice Policy Institute, Washington, D.C. He has more than a 
decade of experience as a justice educator and policy analyst 
and has produced educational materials, training materials, 
reports and white papers on topics that include corporate 
accountability, municipal bond finance, prison privatization 
and sentencing policy. He has two degrees from the University 
of Chicago, a bachelor's in Latin American studies and a 
master's in social science.
    Our next witness will be the Honorable Richard Roper, 
United States attorney for the northern district of Texas. He 
served as a U.S. attorney since 2004. He is a career prosecutor 
having served as an assistant U.S. attorney from 1987 to his 
current appointment.
    Prior to joining the U.S. attorney's office, he served as 
Tarrant County assistant district attorney for five years. He 
earned his undergraduate degree from the University of Texas at 
Arlington and a law degree from Texas Tech University.
    Our next witness would be Paul Seave, director, gang and 
youth violence police office of the governor in Sacramento, 
California. He served as the governor's director for gang and 
youth violence policy since 2005. Prior to that appointment, he 
was a career Federal prosecutor, serving as an assistant U.S. 
attorney for 13 years and a U.S. attorney for the eastern 
district of California from 1997 to 2001.
    From 2001 to 2005, he served as special assistant attorney 
general until his current appointment. He has a bachelor's 
degree from Princeton University and a law degree from the 
University of Pennsylvania Law School.
    Our final witness will be Dr. Peter Scharf, research 
professor of criminal justice and executive director for the 
Center for Society Law and Justice at the Texas University. Dr. 
Scharf is an expert in criminal justice and with numerous 
contributions to progressive policies. He helped found the BJA 
Community Policing Consortium, developed a risk assessment 
management system and served as a primary consultant to the 
governor's report on the Crown Heights civil disorder.
    He has received a great deal of media attention in the past 
year related to his research in youth violence, particularly 
those involving gangs. He is currently conducting research 
related to the control of murder and violent crime risk, prison 
rape patterns and new technologies related with the potential 
of reducing homicide risk. He received his doctoral degree from 
Harvard University.
    So we will begin with Mr. Walsh.

  TESTIMONY OF BRIAN W. WALSH, SENIOR LEGAL RESEARCH FELLOW, 
CENTER FOR LEGAL AND JUDICIAL STUDIES, THE HERITAGE FOUNDATION, 
                         WASHINGTON, DC

    Mr. Walsh. Thank you, Chairman Scott and Ranking Member 
Forbes for inviting me here today. I want to touch briefly on 
two topics: constitutional principles of federalism that apply 
to inherently local gang-related crime and the effective 
Federal funding of programs to reduce and prevent gang-related 
crime.
    Violent street crime committed by gang members is a serious 
problem in many States. But turning crimes that are 
fundamentally local in nature into Federal crimes is not the 
solution.
    Approximately 95 percent of the criminal investigations and 
prosecutions in the United States are conducted--not by Federal 
law enforcement--but by law enforcement at the State and local 
level. Unjustified Federal intervention into anti-gang 
activities dilutes authority and accountability and detracts 
from the most effective anti-gang enforcement strategies that 
are available to State and local law enforcement officials.
    The Federal Government does have an important role to play 
in combating gang-related crime. But that role is limited by 
the Constitution and should be further restricted to developing 
and funding programs that carry out traditional Federal 
functions.
    Several broad bills in recent Congresses have attempted to 
federalize gang crime, conduct which, in most instances, is 
nothing other than ordinary street crime. S. 456 and H.R. 3547, 
for example, would effectively transform a broad class of 
State-law crimes into Federal offenses.
    These Federal criminal provisions would invite serious 
constitutional challenges. The bills may in many cases 
unconstitutionally attempt to extend Congress' powers beyond 
the limits of the Commerce Clause.
    No power that civil government commonly uses against its 
citizens is greater or more prone to abuse than the criminal 
law and criminal process. This is a compelling reason to craft 
any new Federal criminal law with great care and attention to 
the limitations that the Constitution places on the legislative 
power.
    S. 456 and H.R. 3547 include language purporting to 
restrict the scope of their central criminal provisions to 
conduct and activities that ``occur in or affect interstate or 
foreign commerce.'' But to fall within Congress' power to 
regulate commerce among the several States, a problem must not 
merely be common to the States, it must be truly interstate in 
nature and substantially affect interstate commerce.
    For this reason, Congress' power under the Commerce Clause 
does not include the authority to federalize most noncommercial 
street crimes, whether or not they share some minor nexus with 
interstate commerce. In short, local violent crime that is not 
directed at interstate commerce, that is, the sort of crime 
that is at the heart of most gang-related street crime, is not 
a proper subject matter for Federal legislation.
    Not long ago the Supreme Court rejected the Federal 
Government's ``costs of crime'' and ``national productivity'' 
rationales for asserting Federal authority over crime that is 
essentially local in nature. The court explained that if it 
were to accept these attenuated chains of but-for reasoning, 
the constitutional limits on congressional power would be 
obliterated.
    S. 456 and H.R. 3547 include similar rationales for 
justifying the assertion of Federal authority. Their findings 
sections state that gang presence, intimidation, and crimes 
``directly and substantially'' affect interstate and foreign 
commerce--but merely saying so does not make it so, and such 
language adds little or nothing to the constitutional analysis.
    The good news is this should not be viewed as a failing of 
our constitutional system. Former Attorney General Edwin Meese, 
my distinguished colleague at the Heritage Foundation, is a 
great friend of and advocate for State and local law 
enforcement. Ed Meese has frequently stated that unjustified 
assertions of Federal authority in State and local law 
enforcement dilutes accountability and responsibility and 
undermines rather than promotes effective law enforcement.
    Constitutional concerns, such as those that arise from the 
Federal criminal provisions in these two bills, generally do 
not apply to Federal expenditures for gang-related programs, 
including those in the Youth PROMISE Act. Congress' 
constitutional power to spend Federal money to create programs 
involving State and local government agencies is broad and 
includes the authority to impose meaningful conditions on grant 
recipients.
    Federal funding to combat gang-related crime should be 
focused on programs that, one, carry out traditional Federal 
functions, two, are carefully crafted and evaluated to ensure 
they achieve their stated goals, and three, include sufficient 
oversight and auditing to minimize waste and abuse of Federal 
funds and to ensure that such funds do not merely supplant 
funds that would otherwise be provided by State and local 
governments.
    I would like to direct the Committee's attention to my 
written statement for a broader discussion of the principles of 
effective Federal funding, and focus just on the second item in 
this list. One of the best uses of Federal funding is for 
programs to research and promote so-called evidence-based crime 
prevention, that is, crime prevention strategies and methods 
the results of which can be verified empirically.
    Congress should set high standards for measuring 
effectiveness. No one other than the administrators of programs 
receiving Federal grants are well served by standards that are 
easy to satisfy.
    As in any well run business, such programs must have 
measurable results to demonstrate their effectiveness. The 
metrics to be used must be standardized if each grantee's 
performance is to be readily compared with the performance of 
others. The Federal Government should also impose meaningful 
interim benchmarks to ensure that the gang prevention programs 
it funds are on target to meet the goals for which Congress has 
provided funding.
    Thank you again, Chairman Scott and Ranking Member Forbes. 
And I look forward to responding to any questions.
    [The prepared statement of Mr. Walsh follows:]
                  Prepared Statement of Brian W. Walsh

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you. Thank you very much.
    Judge Jones?

 TESTIMONY OF THE HONORABLE JERRAULD C. JONES, JUDGE, NORFOLK 
  JUVENILE AND DOMESTIC RELATIONS DISTRICT COURT, NORFOLK, VA

    Judge Jones. To you, Mr. Chairman and to my friend and 
former colleague, Mr. Forbes, Members of the Judiciary 
Subcommittee, I say good afternoon. Let me begin by thanking 
each of you for the invitation to appear before you this 
afternoon in order to share with you my experiences and views 
on the issue of gang crime prevention. I am indeed honored to 
be included as a witness.
    I must apologize for the late submission of my printed 
remarks. But the invitation to appear today arrived when I was 
out of the country at a judicial conference without a laptop 
computer. And I did not return home until the wee hours of 
yesterday morning fully jet lagged.
    In any event, after hearing a full court docket of cases, I 
was able to gather my thoughts for this afternoon and reduce 
them to writing for your consideration. Again, please accept my 
sincerest apologies.
    I think I must add that I am not here today to speak for or 
against any particular bill or resolution pending before the 
Committee, in as much as that would be in violation of my 
judicial ethics and of my office. So I want to make sure that 
everybody is very clear about that point.
    But let me begin by applauding all of you who are focusing 
on this most serious issue by emphasizing prevention and early 
intervention in the lives of those children who are at risk of 
gang involvement.
    After many years as a professional in the criminal and 
juvenile justice systems and from different vantage points both 
in Government and the community, I have concluded that the only 
sustainable solution to the problems created by criminal street 
gangs and other security threat groups is to focus on the 
elimination of the criminogenic factors which are causing some 
our Nation's children to become gang involved in the first 
place.
    Let me hasten to add that we simply must fully enforce the 
criminal laws and fairly and appropriately punish the offenders 
accordingly. However, such criminal law enforcement, and in 
this case, gang suppression measures, cannot and must not be 
our only rational response. Put another way, we must not only 
lock up children when absolutely necessary, but we must lift 
them up in every possible way.
    I know that what I am saying to you is not exactly rocket 
science, as the saying goes. However, sometimes even the most 
complex problems often have very simple solutions. Frankly 
stated, I draw this conclusion after over 27 years of 
experience as a juvenile prosecutor, juvenile defender, State 
legislator, as head of Virginia's youth authority, and now as a 
juvenile court judge hearing hundreds of cases per month.
    Nothing that I have seen in all of that time has caused me 
to lose confidence in the belief that children, even those who 
are highly delinquent and criminalized in their behavior, are 
in need of the same things that you and I, and I daresay, most 
everyone else in this room this afternoon, had as children 
growing up, the love and affection of a caring, responsible 
adult in their lives. Like many of you, I had parents and 
grandparents--today they would be called old school parents--
who fully functioned as such, and who still vigorously and 
actively parent me to this very day.
    Like us, the children of today need parents and other 
caring adults who provide not only love, but who also instill 
the proper discipline, values, morals and boundaries in the 
life of a child from birth and beyond. The sad reality is that 
so many children today lack parents and-or guardians who 
perform these functions. In particular, we see the causes and 
effects of this condition in the juvenile and family courts 
every day.
    Each day that I sit as a judge, I adjudicate the cases of 
children who come from weak or even nonexistent family 
structures. Of course, we know that many children today are not 
born of marriage, as it is an institution in decline. It is not 
unusual for me to hear a full week's worth of juvenile and 
family cases involving children whose parents were never 
married.
    Also, we know that many children do not live in homes where 
there are two parents or any parents at all. You may be 
surprised to know how many slightly older siblings are the 
primary caregivers for many of our Nation's children. We also 
know that many children do not live in homes where there is any 
positive reinforcement by parents or other adults of the pro-
social, pro-family values to which we all subscribe.
    I mention this situation first and foremost because I have 
concluded that this weakened family structure is one of the 
principal causes of children becoming gang involved. In 
essence, many of them are searching for a sense of belonging, 
an affiliation with others who care about them.
    They are searching for something that they are not getting 
elsewhere in their lives. When asked, many of these children 
openly admit to their probation or parole officer, their 
teacher or school counselor, and yes, even to the judge, that 
they affiliate with the Bloods because it is the Bloods who 
care about them.
    It is the MS-13's who will be there for them when they need 
them, who have their back, so to speak. Arguably then, in many 
cases, gang involvement is a child's cry for attention, the 
attention that you and I got from the Boy Scouts or the Little 
League or the youth group at church
    If this is, in fact, correct, then I respectfully submit 
that anything and everything that can be done to support and 
promote the family is gang prevention and crime prevention. I 
think that just one of the innovative solutions that the 
Federal Government or that any government, for that matter, can 
foster is to promote the establishment of mentoring and other 
programs which connect children and young adults with other 
adults who will establish positive, pro-social relationships 
with them.
    Many such programs and services already exist in many 
places, but, of course, more human and financial resources are 
needed. I am proud to report that the judges of the court on 
which I sit have worked to establish such a volunteer program 
with our court-involved youth, and the effort thus far is 
successful.
    The volunteer mentors, many of whom are early retirees, are 
responding to the challenge. The mentees are responding by the 
avoidance of further acts of delinquency. Generally, our 
efforts to divert certain delinquent children from deeper 
penetration into the court system will include the 
establishment of a mentor-mentee relationship. It works, and it 
lasts, and it is cheap.
    At this point, I feel obliged to observe that the 
suggestions I make to all of you all today are the same or 
similar suggestions which many of us made to the State 
legislative judiciary committee on which I served as a member, 
along with Representative Forbes, back in the middle 1990's. As 
you all are today, we were then seeking to find innovative 
governmental and public policy solutions to what was then seen 
as a rising tide of serious, chronic, and violent juvenile 
crime, including a perceived increase in youth gang activity. 
Virginia, like most other States, responded with a variety of 
responses, which included lowering the age of transfer to adult 
courts, automatic adult treatment for certain offenses, longer 
lengths of stay in secure confinement, and so on.
    In sum, the legislature responded by adultifying the 
juvenile justice system. I am obliged to observe that virtually 
every State, including Virginia, is now engaged in a 
comprehensive review of the long term outcomes of those 
changes. In many States, highly reputable and unbiased 
evaluators, many of them university-based, have concluded that 
such highly punitive policies have not been effective in 
reducing delinquency and criminality in juvenile offenders.
    Mr. Scott. Judge, I am going to have to ask you to kind of 
summarize the rest.
    Judge Jones. I will. I will conclude. Of course, I am used 
to having the gavel myself. But I am happy to be here, Mr. 
Chairman and Members of the Committee. And I will be happy to 
answer any questions that you might have. Thank you very much.
    [The prepared statement of Judge Jones follows:]
         Prepared Statement of the Honorable Jerrauld C. Jones
    To you, Mr. Chairman, and to the Honorable Members of the Judiciary 
Subcommittee, I say good afternoon. Let me begin by thanking each of 
you for the invitation to appear before this afternoon in order to 
share with you my experiences and views on the issue of gang crime 
prevention. I am indeed honored to be included as a witness. I must 
apologize for the late submission of my printed remarks, but the 
invitation to appear today arrived when I was out of the country at a 
judicial conference, without a laptop computer; and I did not return 
home until the wee hours of yesterday morning--fully jet-lagged. In any 
event, after hearing a full court docket of cases, I was able to gather 
my thoughts for this afternoon and reduce them to writing for your 
consideration. Again, please accept my sincerest apology.
    Let me begin by applauding all of you who are focusing on this most 
serious issue by emphasizing prevention and early intervention in the 
lives of those children who are at risk of gang involvement. After many 
years as a professional in the criminal and juvenile justice systems, 
and from different vantage points both in government and the community, 
I have concluded that the only sustainable solution to the problems 
created by criminal street gangs and other security threat groups is to 
focus on the elimination of the criminogenic factors which are causing 
some our nation's children to become gang involved in the first place. 
Let me hasten to add that we simply must fully enforce the criminal 
laws and fairly and appropriately punish the offenders accordingly. 
However, such criminal law enforcement, and in this case, gang 
suppression measures cannot and must not be our only rational response. 
Put another way, we must not only lock up children when absolutely 
necessary, but we must lift them up in every possible way.
    I know that what I am saying to you is not exactly rocket science, 
as the saying goes. However, sometimes even the most complex problems 
often have very simple solutions.
    Frankly stated, I draw this conclusion after over twenty-seven 
years of experience as a juvenile prosecutor, juvenile defender, state 
legislator, as head of Virginia's youth authority, and now, as a 
juvenile court judge hearing hundreds of cases per month. Nothing that 
I have seen in all of that time has caused me to lose confidence in the 
belief that children, even those who are highly delinquent and 
criminalized in their behavior, are in need of the same things that you 
and I, and I daresay, most everyone else in this room this afternoon 
had as children growing up--the love and affection of a caring, 
responsible adult in their lives. Like many of you, I had parents and 
grandparents (today they would be called ``old school'' parents) who 
fully functioned as such, and who still vigorously and actively parent 
me to this very day. Like us, the children of today need parents and 
other caring adults who provide not only love, but who also instill the 
proper discipline, values, morals, and boundaries in the life of a 
child from birth and beyond. The sad reality is that so many children 
today lack parents and/or guardians who perform these functions. In 
particular, we see the causes and effects of this condition in the 
juvenile and family courts every day.
    Each day I sit as a judge, I adjudicate the cases of children who 
come from weak or even non-existent family structures. Of course, we 
know that many children today are not born of marriage, as it is an 
institution in decline. It is not unusual for me to hear a full week's 
worth of juvenile and family cases involving children whose parents 
were never married. Also, we know that many children do not live in 
homes where there are two parents, or any parents at all. You may be 
surprised to know how many slightly older siblings are the primary 
caregivers for many of our nation's children. We also know that many 
children do not live in homes where there is any positive reinforcement 
by parents or other adults of the pro-social, pro-family values to 
which we all subscribe.
    I mention this situation first and foremost because I have 
concluded that this weakened family structure is one of the principal 
causes of children becoming gang involved. In essence, many of them are 
searching for a sense of belonging, an affiliation with others who care 
about them. They are searching for something that they are not getting 
elsewhere in their lives. When asked, many of these children openly 
admit to their probation or parole officer, teacher or school 
counselor, and yes, even to the judge, that they affiliate with the 
Bloods because it is the Bloods who do care about them. It is the 
MS13's who will be there for them when they need them--who have their 
back, so to speak. Arguably then, in many cases, gang involvement is a 
child's cry for attention, the attention that you and I got from the 
Boy Scouts or the Little League or the youth group at church.
    If this is, in fact, correct, then I respectfully submit that 
anything and everything that can be done to support and promote the 
family is gang prevention and crime prevention. I think that just one 
of the innovative solutions that the federal government, or that any 
government for that matter, can foster is to promote the establishment 
of mentoring and other programs which connect children and young adults 
with other adults who will establish positive, pro-social relationships 
with them. Many such programs and services already exist in many 
places, but, of course, more human and financial resources are needed. 
I am proud to report that the Judges of the Court on which I sit have 
worked to establish such a volunteer program with our court-involved 
youth, and the effort thus far is successful. The volunteer mentors, 
many of whom are early retirees, are responding to the challenge. The 
mentees are responding by the avoidance of further acts of delinquency. 
Generally, our efforts to divert certain delinquent children from 
deeper penetration into the court system will include the establishment 
of a mentor/mentee relationship. It works and it lasts. And, it is 
cheap. . . .
    At this point, I feel obliged to observe that the suggestions I 
make to you all today are the same or similar suggestions which many of 
us made to the state legislative judiciary committee on which I served 
as a member back in the middle nineties. As you all are today, we were 
then seeking to find innovative governmental and public policy 
solutions to what was then seen as a rising tide of serious, chronic 
and violent juvenile crime, including a perceived increase in youth 
gang activity. Virginia, like most other states, responded with a 
variety of responses which included, lowering the age of transfer to 
adult courts, automatic adult treatment for certain offenses, longer 
lengths of stay in secure confinement, and so on.
    In sum, the Legislature responded by ``adultifying'' the juvenile 
justice system. I am also obliged to observe that virtually every 
state, including Virginia, is now engaged in a comprehensive review of 
the long term outcomes of those changes. In many states, highly 
reputable and unbiased evaluators, many of them university based, have 
concluded that such highly punitive policies have not been effective in 
reducing delinquency and criminality in juvenile offenders. 
Respectfully, I strongly urge the Congress to be informed in these 
matters by the experience of the states during the last fifteen years.
    I might also add that the costs of juvenile incarceration are 
staggering. In Virginia today, it costs over $88,000.00 per bed per 
year to incarcerate a child, an increase of about $8,000.00 per year 
from when I headed the youth authority five years ago. As is often 
observed, one can do a whole lot of juvenile crime and gang prevention 
for a fraction of the cost of incarceration.
    I would respectfully make one other observation and recommendation 
to the Committee. It appears to me that one of the criminogenic factors 
to which I earlier alluded is the extent to which delinquent and 
criminalized children read below age and grade level. If one reviews 
the pre-sentencing report of most juvenile offenders or gang involved 
youth, you will find school records and/or test scores which bear out 
this statement. Of course, the reading level is an early predictor of 
conventional academic success or failure. As the academic achievement 
gap grows, so does the likelihood that the child will become delinquent 
and eventually criminal. I urge you to ask any prosecutor, lawyer, 
probation officer or judge about this common characteristic. I assure 
you that they will heartily and readily agree. I am even advised that 
some states now look to the reading levels of third graders when 
forecasting their juvenile detention and prison bed needs into the next 
decade as they age into the crime prone years.
    Therefore, one other innovative gang prevention strategy surely 
must be strong governmental efforts to promote reading proficiency 
among all children, but especially among delinquent children who are at 
risk of gang involvement. Again, I am proud to report that the Court on 
which I sit, does, indeed, understand the connection. Towards that end, 
we have recently established the LEAP into LITERACY program for court-
involved youth in which a retired public school counselor volunteers 
every day of the week providing donated books and tutorials. Believe it 
or not, the ``Book Lady'' is now getting telephone calls at home from 
the little brothers and sisters of children in diversion programs and 
on probation who want to know if they can have a book, too! Yes, 
reading is fundamental! And again, promoting literacy is one of the 
most important and lasting ways to lift up children so that we do not 
have to lock them up down the road.
    There are many other matters for your consideration but time does 
not permit any further remarks.
    I do sincerely thank the Subcommittee for your time and attention 
to this critical issue in the public safety of our fellow citizens. I 
commend you for your good efforts today and in the future. I am honored 
by your invitation to participate and I stand ready and willing to 
assist you in any way possible. I am now ready and willing to answer 
any questions which you might have.
    Thank you, again.

    Mr. Scott. Thank you.
    Mr. Roper?

    TESTIMONY OF THE HONORABLE RICHARD ROPER, UNITED STATES 
              ATTORNEY, NORTHERN DISTRICT OF TEXAS

    Mr. Roper. Chairman Scott, Ranking Member Forbes, and 
Members of the Subcommittee, I am Richard Roper, the United 
States attorney for the northern district of Texas. It is an 
honor to be here today to discuss this important matter.
    As a 25-year prosecutor who has worked at both the State 
and Federal levels, I know that violent crime and gangs present 
a critical public safety challenge that grips communities of 
all sizes and demands a strong and coordinated response from 
all of us. I want to discuss briefly the department's efforts 
in this area and provide examples from my district, which I 
think demonstrate that we can work together with our State and 
local partners and with community leaders to implement an 
effective strategy to combat violent crime and gangs.
    The department's comprehensive approach to gangs and 
violent crimes involves three prongs. First, the cooperative 
enforcement initiatives which assist our State and local 
partners in identifying and incarcerating those involved in 
firearm and gang violence; two, innovative prevention 
strategies and public awareness campaigns designed to 
discourage gang membership, gun activity, truancy and violent 
crime; and three, prisoner reentry programs geared to keep 
former gang members and other violent criminals from returning 
to gang membership and criminal activity after they are 
released from prison.
    Now, first is the enforcement initiative. That initiative 
revolves around the Project Safe Neighborhood Program that 
started in 2002, which is a cooperative effort among Federal, 
State and local law enforcement agencies and prosecutors to 
reduce gun crime.
    In the 6 years PSN has been around, the department has more 
than doubled the number of Federal firearm prosecutions 
compared with the previous 6 years. And the conviction rate has 
been high. For example, in 2006, the rate was 92 percent, which 
is the highest it has ever been.
    We have expanded PSN to include an increased focus on gang 
violence. The department's comprehensive anti-gang initiative 
has been pushed out to now 10 jurisdictions across the country, 
including in my area, the Dallas, Fort Worth area.
    The department has also established the anti-gang 
coordination committee to organize the department's wide-
ranging efforts to combat gangs. At the district level each 
U.S. attorney is appointed an anti-gang coordinator to provide 
leadership and focus to our anti-gang efforts locally.
    In addition, the department has established a new national 
gang task force composed of the Federal law enforcement 
agencies, the Bureau of Prisons and the Marshall Service, to 
coordinate gang investigations and prosecutions both on a 
national level and also to deal with the threat posed by 
international gangs. Also the department has established 
numerous joint violent crime-related task forces.
    You have already heard about some of those, the FBI-led 
Safe Streets Task Force, the Gang Streets Task Force that focus 
on dismantling organized gangs. The U.S. Marshall-led Regional 
Fugitive Task Force and district-based task forces across the 
country that focus on fugitive apprehension efforts and, of 
course, the ATF Violent Crime Impact Teams, composed of Federal 
agents working with State and local partners to identify, 
target and arrest violent criminals to reduce the occurrence of 
homicide and firearm-related violent crimes.
    I wanted to give you some examples of how I think PSN and 
the gang initiative have worked. And let me deal with my areas.
    First, there is two initiatives I wanted to talk about. The 
Cymbal Street investigation involved ATF working with the 
Dallas Police Department. And they faced two street gangs who 
worked together to maintain control of a neighborhood in East 
Dallas for their drug trafficking activities. They excluded 
other drug dealers from even working in that area.
    The neighbors living there were afraid to go to their 
homes, come out of their homes or be seen talking to the police 
in public view because of fear of reprisal from gang members. 
Following the 2003 arrest and eventual Federal prosecution of 
these gang members, crime dropped in that area 47 percent.
    Another initiative was the fishbowl initiative where 41 
gang members were prosecuted resulting in--in just 1 year since 
we prosecuted that case--a 10 percent reduction in the violent 
crime rate in that area. But it involves more than just 
enforcement. The prevention programs we have that we are 
pushing out, the gang prevention summits that U.S. attorneys 
offices have put on, the ad council ads that have been put out, 
the gang resistance education program has been successful in 
bringing to the schools training and to keep the kids out of 
gangs.
    In my district we have had a very successful program in the 
Dallas independent school district in reducing gang violence. 
It involves training and also reaching out to kids before they 
get in gangs all the way down to the elementary school.
    We have also worked with the Boys and Girls Club. And 
finally, let me just briefly mention first, just a few seconds. 
What I am proud of is our reentry program. In the Dallas, Fort 
Worth area we have had two reentry programs, one our Project 
Safe Neighborhood Program that essentially is an education 
program to essentially scare released probationers and parolees 
from engaging in gun crime. Our research partner found that 
there was a 48 percent reduction in the incidents of gun crimes 
among probationers and parolees in Dallas County since we 
started that program.
    And also we have initiated as part of the anti-gang grant 
that we received from the Department of Justice, a reentry 
initiative where we are taking 100 gang members that are 
released from prison and provide essential services to them. 
And that involves three areas: first, job training, job 
placement, and mentoring.
    And I am really glad we can partner. We are partnering with 
a faith-based group headed by the Potter's House, in Dallas, to 
deal with that. And it is both in Dallas and Forth Worth. And I 
look forward to doing that.
    I think the key to success in this area is cooperation with 
our State and local partners. And I think opening the door wide 
to crime reduction involves employing that three-pronged 
approach of enforcement, prevention, and reentry.
    [The prepared statement of Mr. Roper follows:]
          Prepared Statement of the Honorable Richard B. Roper

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Mr. Seave?

 TESTIMONY OF PAUL L. SEAVE, DIRECTOR, GANG AND YOUTH VIOLENCE 
         POLICY OFFICE OF THE GOVERNOR, SACRAMENTO, CA

    Mr. Seave. Good afternoon, Mr. Chairman, Ranking Member 
Forbes, and Members of the Subcommittee. My name is Paul Seave. 
And I am California's director of gang and youth violence 
policy, a position to which I was recently appointed by 
Governor Arnold Schwarzenegger.
    Thank you very much for allowing me to be here today to 
testify. And I am here to express strong support of H.R. 3547, 
the Gang Prevention Intervention and Suppression Act, sponsored 
by Congressman Adam Schiff and Congresswoman Mary Bono.
    My support for H.R. 3547 derives directly from California's 
long and tragic experience with street gangs. Before I proceed, 
however, let me explain by way of background. As the Chairman 
mentioned in part, before assuming my current position I was a 
Federal prosecutor for 15 years, including the last 4 as the 
United States attorney in Sacramento. And after, that I spent 5 
years as director of the California attorney general's crime 
and violence prevention center, where my staff of 40 promoted 
prevention and intervention strategies in a number of areas, 
including gang and youth violence.
    Now, if there is one lesson that law enforcement in 
California has learned after decades of gang violence, 
concentrated suppression efforts and more than 10,0000 gang-
related homicides in the last 20 years, it is that we can't 
arrest our way out of the problem. So says virtually every law 
enforcement leader in California.
    This does not mean that law enforcement shouldn't pursue 
those who commit violence or that smart suppression efforts 
aren't necessary to interrupt the escalating cycle of 
retaliatory violence that often attends gang disputes. Instead 
what it does mean is that suppression should be viewed as both 
a short-term fix to gang violence and the critical first step 
to a long-term solution.
    And that solution requires prevention and intervention 
activities, hopefully those that have been proven effective, 
implemented in a sustained and robust fashion according to a 
comprehensive strategic plan formulated by many sectors in the 
community. A strategy that overlooks any of these components, 
suppression, prevention or intervention, will inevitably allow 
the conditions that gave rise to the violence and the violence 
itself to reemerge.
    The primary responsibility for addressing gang violence 
belongs to local communities with the support of State 
government. But the scope, persistence, and effects of gang 
violence leave no doubt that Federal help and leadership are 
now needed if we are to bring about a long-term reduction in 
gangs and gang violence.
    H.R. 3547 delivers that help and leadership hitting all the 
marks. For example, Federal enforcement efforts are sometimes 
needed to supplement those of local and State agencies when 
street gangs are particularly dangerous or violent. This bill 
authorizes Federal agencies to prosecute those gangs for the 
types of crimes that they commit, particularly for acts of 
violence and for retaliation against witnesses.
    Prevention and intervention must receive equal attention. 
And again, this bill does just that.
    The provisions in title 3 that allow designation of high-
intensity gang activity areas promote the most effective 
approach, in my view, to reducing gang violence in the long-
term. Targeting the areas most afflicted by gang crime, 
requiring each high-intensity gang area to create a multi-
disciplinary working group of law enforcement, educators, faith 
leaders, community leaders and service providers, giving 
preference for funding to areas that have comprehensive 
strategies, requiring Federal, State and local law enforcement 
to work together, giving 50 percent of the funds to enforcement 
and 50 percent to intervention and prevention, and finally, 
creating a national gang research evaluation and policy 
institute to conduct further research on programs that work, 
programs that don't work, and to facilitate and promote 
adoption of those programs that do work. This is an absolutely 
essential organization that is best situated at the Federal 
level.
    California has learned the hard way that suppression is a 
critically important part of the answer, but not the complete 
answer to reducing gang violence, that prevention and 
intervention are absolutely essential to any long-term strategy 
to reduce gang violence, and that Federal assistance and 
leadership across all three dimensions are necessary. H.R. 3547 
promises to deliver the needed help.
    I would ask that the House move quickly to address the 
national problem of gang violence just as the Senate recently 
passed S. 456, a bill sponsored by Senators Feinstein and 
Hatch, that takes a similar approach to reducing gang violence. 
Thank you.
    [The prepared statement of Mr. Seave follows:]
                  Prepared Statement of Paul L. Seave
                              introduction
    Good afternoon. My name is Paul Seave, and I am California's 
Director of Gang and Youth Violence Policy, a position to which I was 
recently appointed by Governor Arnold Schwarzenegger. I am here to 
testify in strong support of H.R. 3547, the Gang Prevention, 
Intervention, and Suppression Act, sponsored by Congressman Adam Schiff 
and Congresswoman Mary Bono.
    My support for H.R. 3547 derives directly from California's long 
and tragic experience with street gangs. Before I proceed, however, let 
me explain, by way of background, that before assuming my current 
position I served as a federal prosecutor in CA for fifteen years--the 
last four as United States Attorney in Sacramento. I spent the next 
five years as Director of the CA Attorney General's Crime and Violence 
Prevention Center, where my staff of 40 promoted prevention and 
intervention strategies in a number of areas, including gang and youth 
violence.
                        california's experience
    Now: If there is one lesson that law enforcement in California has 
learned after decades of gang violence, concentrated suppression 
efforts, and more than 10,000 gang-related homicides in the past twenty 
years, it is that ``We can't arrest our way out of the problem.''--So 
says virtually every law enforcement leader in California.
    This does not mean that law enforcement should not pursue those who 
commit violence, or that ``smart'' suppression efforts aren't necessary 
to interrupt the cycle of retaliatory violence that attends gang 
disputes. Instead, what it does mean is that suppression should be 
viewed as both a short-term fix to gang violence and the critical first 
step to a long-term solution. And that solution requires prevention and 
intervention activities--hopefully those that have been proven 
effective--implemented in a sustained and robust fashion according to a 
comprehensive strategic plan formulated by many sectors in the 
community. A strategy that overlooks any of these components--
suppression, prevention, or intervention--will inevitably allow the 
conditions that gave rise to the violence, and the violence itself, to 
re-emerge.
                         need for federal role
    The primary responsibility for addressing gang violence belongs to 
local communities with the support of state government. But the scope, 
persistence, and effects of gang violence leave no doubt that federal 
help and leadership are now needed if we are to bring about a long-term 
reduction in gangs and gang violence.
    H.R. 3547 delivers that help and leadership, hitting all the marks. 
For example, federal enforcement efforts are sometimes needed to 
supplement those of local and state agencies when street gangs are 
particularly dangerous or violent. This bill authorizes federal 
agencies to prosecute those gangs for the types of crimes that they 
commit--particularly, for acts of violence and for retaliation against 
witnesses.
    Prevention and intervention must receive equal attention and again 
this bill does just that. The provisions in Title III that allow 
designation of High Intensity Gang Activity Areas (HIGAAs) promote the 
most effective approach to reducing gang violence in the long-term--1) 
targeting the areas most afflicted by gang crime; 2) requiring each 
HIGAA to create a multi-disciplinary working group of law enforcement, 
educators, faith leaders, community leaders, and service providers; 3) 
giving preference for funding to areas that have comprehensive 
strategies; 4) giving 50% of the funds to enforcement and 50% to 
intervention and prevention; and 5) creating a National Gang Research, 
Evaluation, and Policy Institute, an absolutely essential organization 
that is best situated at the federal level.
                               conclusion
    California has learned--the hard way--that suppression is a 
critically important part of the answer, but not the complete answer, 
to reducing gang violence; that prevention and intervention are 
absolutely essential to any long-term strategy to reduce gang violence; 
and that federal assistance and leadership--across all three 
dimensions--are necessary. H.R. 3547 promises to deliver the needed 
help. I would ask that the House move quickly to address the national 
problem of gang violence, just as the Senate recently passed S. 456, a 
bill sponsored by Senators Dianne Feinstein and Orrin Hatch that takes 
a similar approach to reducing gang violence.

    Mr. Scott. Thank you. We were joined previously by the 
gentleman from Ohio, Mr. Chabot, and the gentleman from 
Wisconsin, Mr. Sensenbrenner. And we also have with us today 
the gentleman from Georgia, Mr. Johnson. And Ms. Jackson Lee 
was here.
    Mr. Pranis?

            TESTIMONY OF KEVIN PRANIS, RESEARCHER, 
            JUSTICE POLICY INSTITUTE, WASHINGTON, DC

    Mr. Pranis. Good afternoon. I want to thank Congressman 
Scott and Congressman Forbes and the Members of the 
Subcommittee for the opportunity to address this important 
issue today. My name is Kevin Pranis. And I am here 
representing the Justice Policy Institute, a criminal justice 
think tank based in the District of Columbia.
    Youth crime in the United States remains near the lowest 
level seen in decades. Yet public concern and media coverage of 
gang activity has skyrocketed since 2000. Some policy makers 
have declared the arrival of a national gang crisis tying gangs 
to terrorism and connecting their formation and growth to 
everything from lax border enforcement to the illicit drug 
trade.
    Rising fears have prompted calls for a new tough 
legislation that would raise penalties for a vaguely defined 
gang crimes and spend millions of dollars on gang suppression. 
Two years ago in response to these fears the Justice Policy 
Institute commissioned my organization to produce an in-depth 
report on what is known about gangs and the efficacy of common 
gang control strategies.
    My colleague, Judy Greene, and I began with an extensive 
review of the social science literature on gangs and gang 
membership. We also interviewed a diverse group of 
stakeholders, including scholars, law enforcement officials, 
former gang members. And we conducted original analysis of 
youth survey and law enforcement data.
    ``Gang Wars: The Failure of Enforcement Tactics, and the 
Need for Effective Public Safety Strategies,'' was released in 
July of this year. As the title suggests, we found that most 
common assumptions about gangs are inaccurate and that current 
gang enforcement practices are misguided. We hope that the 
report's findings, which I will briefly summarize today, will 
help policy makers advance more effective approaches to reduce 
unacceptably high levels of crime and violence in some of our 
communities.
    You have heard gangs described as top down criminal 
organizations that are driven by their leaders' desire to 
maximize power and profit often by recruiting an army of young 
men to impose a reign of terror on a geographic area. This 
conception of gangs gives rise to a common set of enforcement 
strategies: target and remove the leaders, disrupt the gang's 
ability to function as a unit, deter youth from joining or 
remaining in the gang by exposing them to criminal processing 
and penalties.
    Unfortunately, our review of the research literature shows 
that such strategies have failed time and again to achieve 
meaningful reductions in the crime and violence associated with 
gangs. The reason? The assumptions that underlie traditional 
gang enforcement are dead wrong.
    Gangs are, for the most part, bottom-up associations formed 
by troubled adolescents who engage in self-directed 
disorganized crime. Gangs do not require leaders to get 
themselves in trouble. And they fear rival gang members more 
than they fear police or prison.
    Fortunately, for the rest of us, most quickly outgrow their 
gang ties without the help of law enforcement or gang 
intervention programs. The typical gang member joins between 
the ages of 12 and 15 and quits the gang within the first year. 
Ex-gang members typically cite high levels of violence or 
maturation as reasons for leaving. Only rarely do they cite 
fear of arrest or criminal penalties.
    Leaving the gang early sharply reduces the risk of negative 
life outcomes. But current policies make it more difficult for 
gang members to quit by continuing to target former members 
after their gang affiliation has ended.
    Media reports are full of stories about cities where crime 
goes up, a crackdown is launched, and crime goes down. But a 
review of research on the implementation of gang enforcement 
strategies from 17 jurisdictions over a 20-year period shows an 
overall record of failure. Problems identified in the 
literature include: a lack of correspondence between the 
problem, typically lethal or serious violence, and a law 
enforcement response that targets low-level, nonviolent 
misbehavior; evidence that the intervention had no effect, or a 
negative effect, on crime and violence; a tendency for any 
reductions in crime and violence to evaporate quickly, often 
before the end of the intervention period; and failure of 
replication efforts to achieve results comparable to those of 
the pilot program.
    Among our specific findings, police gang units are often 
formed for the wrong reasons and perceived as isolated and 
ineffectual by law enforcement colleagues. An in-depth study of 
four cities determined that the units were formed in response 
to political, public and media pressure and that ``almost no 
one other than the gang unit officers themselves seemed to 
believe the gang unit's suppression efforts were effective at 
reducing communities' gang problems.'' There is, similarly, no 
evidence whatsoever that other gang targeting programs, 
including task forces, prosecution units or gang sentencing 
enhancements have any impact on gang activity.
    Second, heavy-handed suppression efforts can increase gang 
cohesion and police community tension. And they have a poor 
track record when it comes to reducing crime and violence.
    Results from a Department of Justice-funded interventions 
in three major cities yield no evidence that a flood of Federal 
dollars and arrests had a positive impact on neighborhoods. For 
example, Dallas residents saw the incidents of gang-related 
violence fall in target areas, but ended up worse off than 
residents of other neighborhoods because overall violent crime 
went up during the intervention period.
    Third, so-called balanced gang control strategies have been 
plagued by replication problems and imbalances between law 
enforcement and community stakeholders. For example, 
replication of the Boston cease fire model in Los Angeles and 
Indianapolis produced no evidence that efforts to disseminate a 
deterrence message had changed the behavior of gang members.
    The evaluators concluded ``We suspect that the carrot of 
the interventions will always lag far behind the stick side, in 
spite of the best intentions that it not do so, unless some 
extraordinary efforts are made.'' Simply put, there is no 
balance in the balanced approach to gang enforcement.
    I want to contrast America's two largest cities, New York 
and Los Angeles, to provide a case in point. New York City 
street work and gang intervention programs were fielded decades 
ago during a period when gang violence was on the rise. These 
strategies were grounded in social work practices that go 
outside the realm of law enforcement.
    No seasoned New Yorker would deny the existence of gangs, 
but gang-related offenses represent just a tiny blip on the New 
York crime screen. Comparing New York to Los Angeles where gang 
violence is epidemic, city and State officials have spent 
billions of dollars on policing and surveillance, the 
development of databases containing the names of tens of 
thousands of alleged gang members, and long prison sentences 
for gang members.
    Taxpayers had not seen a return on their massive 
investment. They now report six times as many gangs and at 
least double the number of gang members in the region. The 
crime statistics tell the story.
    LAPD reported 11,402 gang-related crimes in 2005. The same 
year the New York Police Department reported just 520. FBI 
crime reports indicate New York's homicide rate that year was 
half of Los Angeles.
    Yet absent better alternatives, lawmakers across the 
country risk blindly following in Los Angeles' troubled 
footsteps. I would make a plea that we let police do what they 
do best, to solve crimes, identify the perpetrators, and 
apprehend them, not chasing after kids in baggy clothes under 
the assumption that gangs are the primary crime problem in the 
country.
    [The prepared statement of Mr. Pranis follows:]
                   Prepared Statement of Kevin Pranis
    Good afternoon. I want to thank the Chair, Congressman Scott, and 
the members of the House Judiciary Subcommittee on Crime, Terrorism and 
Homeland Security for the opportunity to testify on this important 
issue. My name is Kevin Pranis, and I am here today representing The 
Justice Policy Institute--a criminal justice think-tank based here in 
the District of Columbia.
    I have spent more then a decade working on criminal justice issues: 
as a caseworker, an educator, an advocate, and finally as a policy 
analyst with Justice Strategies--a nonprofit criminal justice research 
organization. During that time, I have authored or co-authored research 
reports and white papers on a wide range of topics, including prisoner 
reentry, sentencing policy, prison privatization, rising female 
imprisonment rates, and the use of substance abuse treatment as an 
alternative to incarceration.
    Two years ago, Justice Policy Institute commissioned Justice 
Strategies to produce an in-depth report on what is known about gangs' 
contribution to problems of crime and violence, as well as the efficacy 
of common gang control strategies. My colleague Judy Greene and I began 
our work with an extensive review of the social science literature on 
gangs and gang membership, incorporating research that examined gangs 
from multiple perspectives (e.g. crime control, youth development) 
using varied techniques (e.g. ethnography, law enforcement data, youth 
surveys). We also interviewed a diverse group of stakeholders, 
including law enforcement officials, scholars, social service 
providers, and former gang members. Finally, we analyzed youth survey 
and law enforcement data to test common assumptions about the 
prevalence of gang membership and the relationship between gang 
activity and crime rates.
    The resulting report, ``Gang Wars: The Failure of Enforcement 
Tactics and the Need for Effective Public Safety Strategies,'' was 
released in July of this year. As the title suggests, we found that the 
most common assumptions about gangs and gang control lack foundation in 
the scientific literature. We hope that the results of our research--
briefly summarized in this testimony--will provide an opportunity to 
pursue more fruitful approaches to reduce unacceptably high levels of 
violence in our communities.
                           gang wars findings
    Youth crime in the United States remains near the lowest levels 
seen in the past three decades, yet public concern and media coverage 
of gang activity has skyrocketed since 2000. Fear has spread from 
neighborhoods with long-standing gang problems to communities with 
historically low levels of crime. Some policy makers have declared the 
arrival of a national gang ``crisis''-tying gangs to terrorism and 
connected their formation and growth to everything from lax border 
enforcement to the illicit drug trade. Rising fears have prompted calls 
for new ``tough'' legislation that would raise penalties for vaguely 
defined gang crimes and spend hundreds of millions of dollars on gang 
suppression. Yet the evidence points to a different reality and 
suggests a more thoughtful policy response. The following are our key 
findings concerning gangs and gang members:
Gangs and gang members
    There are fewer gang members in the United States today than there 
were a decade ago, and there is no evidence that gang activity is 
growing. It is difficult to find a law enforcement account of gang 
activity that does not give the impression that the problem is getting 
worse by the day. Yet the most recent comprehensive law enforcement 
estimate indicates that youth gang membership fell from 850,000 in 1996 
to 760,000 in 2004 and that the proportion of jurisdictions reporting 
gang problems has dropped substantially. The myth of a growing gang 
menace has been fueled by sensational media coverage and misuse of law 
enforcement gang statistics, which gang experts consider unreliable for 
the purpose of tracking local crime trends.
    There is no consistent relationship between law enforcement 
measures of gang activity and crime trends. One expert observes that 
gang membership estimates were near an all-time high at the end of the 
1990s, when youth violence fell to the lowest level in decades. An 
analysis of gang membership and crime data from North Carolina found 
that most jurisdictions reporting growth in gang membership also 
reported falling crime rates. Dallas neighborhoods targeted for gang 
suppression activities reported both a drop in gang crime and an 
increase in violent crime during the intervention period.
    Gang members account for a relatively small share of crime in most 
jurisdictions. There are a handful of jurisdictions such as Los Angeles 
and Chicago where gang members are believed to be responsible for a 
significant share of crime. But the available evidence indicates that 
gang members play a relatively small role in the national crime problem 
despite their propensity toward criminal activity. National estimates 
and local research findings suggest that gang members may be 
responsible for fewer than one in 10 homicides; fewer than one in 16 
violent offenses; and fewer than one in 20 serious (index) crimes. 
Gangs themselves play an even smaller role, since much of the crime 
committed by gang members is self-directed and not committed for the 
gang's benefit.
    Gangs do not dominate or drive the drug trade. National drug 
enforcement sources claim that gangs are ``the primary retail 
distributors of drugs in the country.'' But studies of several 
jurisdictions where gangs are active have concluded that gang members 
account for a relatively small share of drug sales and that gangs do 
not generally seek to control drug markets. Investigations conducted in 
Los Angeles and nearby cities found that gang members accounted for one 
in four drug sale arrests. The Los Angeles district attorney concluded 
that just one in seven gang members sold drugs on a monthly basis. St. 
Louis researchers describe gang involvement in drug sales as ``poorly 
organized, episodic, nonmonopolistic [and] not a rationale for the 
gang's existence.'' A member of one of San Diego's best-organized gangs 
explains: ``The gang don't organize nothing. It's like everybody is on 
they own. You are not trying to do nothing with nobody unless it's with 
your friend. You don't put your money with gangs.''
    Most gang members join when they are young and quickly outgrow 
their gang affiliation without the help of law enforcement or gang 
intervention programs. A substantial minority of youth (7 percent of 
whites and 12 percent of blacks and Latinos) goes through a gang phase 
during adolescence, but most youth quit the gang within the first year. 
One multistate survey found that fully half of eighth-graders reporting 
gang involvement were former members. When former gang members cite 
reasons why they left the gang, they commonly mention high levels of 
violence, and that they just grew out of it; only rarely do they cite 
fear of arrest or criminal penalties. Most youth who join gangs do so 
between the ages of 12 and 15, but the involvement of younger children 
in gangs is not new. Noted expert Malcolm Klein observes: ``Although 
some writers and officials decry the 8- and 10-year-old gang member, 
they haven't been in the business long enough to realize that we heard 
the same reports 20 and 40 years ago.''
    Leaving the gang early reduces the risk of negative life outcomes, 
but current policies make it more difficult for gang members to quit. 
Gang involvement is associated with dropping out of school, teen 
parenthood, and unstable employment, but the risks are much smaller for 
those who leave the gang in a year or less. Yet little attention has 
been devoted to why and how youth leave gangs, and many gang control 
policies make the process of leaving more rather than less difficult by 
continuing to target former members after their gang affiliation has 
ended. Researchers note: ``Police and school officials may not be aware 
of the decision of individuals to leave the gang or may not take such 
claims seriously, and records may not be purged of prior gang status. . 
. . When representatives of official agencies (e.g., police, school) 
identify an individual as a gang member, they are sending a powerful 
signal to rival gang members as well as to people in the community 
about the gang involvement of that person.''
    The public face of the gang problem is black and brown, but whites 
make up the largest group of adolescent gang members. Law enforcement 
sources report that over 90 percent of gang members are nonwhite, but 
youth survey data shows that whites account for 40 percent of 
adolescent gang members. White gang youth closely resemble black and 
Latino counterparts on measures of delinquency and gang involvement, 
yet they are virtually absent from most law enforcement and media 
accounts of the gang problem. The disparity raises troubling questions 
about how gang members are identified by police.
Gang enforcement
    The conventional wisdom on gang enforcement is equally flawed. 
Media reports are full of stories about cities where crime goes up, a 
crackdown is launched, and crime goes down. But a review of research on 
the implementation of gang enforcement strategies--ranging from 
neighborhood-based suppression to the U.S. Justice Department Office of 
Juvenile Justice and Delinquency Prevention's Comprehensive Gang 
Program Model--provides little reason for optimism. Findings from 
investigations of gang enforcement efforts in 17 jurisdictions over the 
past two decades yield few examples of success and many examples of 
failure.
    The problems highlighted in the research include:

        <bullet>  Lack of correspondence between the problem, typically 
        lethal and/or serious violence, and a law enforcement response 
        that targets low-level, nonviolent misbehavior.

        <bullet>  Resistance on the part of key agency personnel to 
        collaboration or implementation of the strategy as designed.

        <bullet>  Evidence that the intervention had no effect or a 
        negative effect on crime and violence.

        <bullet>  A tendency for any reductions in crime or violence to 
        evaporate quickly, often before the end of the intervention 
        period.

        <bullet>  Poorly designed evaluations that make it impossible 
        to draw any conclusions about the effect of an intervention.

        <bullet>  Failure of replication efforts to achieve results 
        comparable to those of pilot programs.

        <bullet>  Severe imbalances of power and resources between law 
        enforcement and community partners that hamper the 
        implementation of ``balanced'' gang control initiatives.

    Among our specific findings concerning typical gang enforcement 
strategies:
    Police gang units are often formed for the wrong reasons and 
perceived as isolated and ineffectual by law enforcement colleagues.  A 
survey of 300 large cities found that the formation of gang units was 
more closely associated with the availability of funding and the size 
of the Latino population than with the extent of local gang or crime 
problems. An in-depth study of four cities determined that gang units 
were formed in response to ``political, public, and media pressure'' 
and that ``almost no one other than the gang unit officers themselves 
seemed to believe that gang unit suppression efforts were effective at 
reducing the communities' gang problems.'' Investigators found that 
gang officers were poorly trained and that their units became isolated 
from host agencies and community residents. The chief of one police 
department admitted that he had ``little understanding of what the gang 
unit did or how it operated.'' The authors observed that the isolation 
of gang units from host agencies and their tendency to form tight-knit 
subcultures--not entirely unlike those of gangs--may contribute to a 
disturbingly high incidence of corruption and other misconduct.
    Heavy-handed suppression efforts can increase gang cohesion and 
police--community tensions, and they have a poor track record when it 
comes to reducing crime and violence. Suppression remains an enormously 
popular response to gang activity despite concerns by gang experts that 
such tactics can strengthen gang cohesion and increase tension between 
law enforcement and community members. Results from Department of 
Justice-funded interventions in three major cities yield no evidence 
that a flood of federal dollars and arrests had a positive impact on 
target neighborhoods. St. Louis evaluators found that dozens of 
targeted arrests and hundreds of police stops failed to yield 
meaningful reductions in crime in the targeted neighborhoods, even 
during the period of intense police activity. Dallas residents saw the 
incidence of ``gang-related'' violence fall in target areas but had 
little to celebrate because the overall violent crime numbers rose 
during the intervention period. Detroit evaluators reported initial 
reductions in gun crimes within two targeted precincts, but the 
apparent gains were short-lived: by the end of the intervention period, 
the incidence of gun crime in target areas was at preintervention 
levels and trending upward.
    ``Balanced'' gang control strategies have been plagued by 
replication problems and imbalances between law enforcement and 
community stakeholders. Gang program models that seek to balance 
suppression activities with the provision of social services and 
supports have been piloted in Boston and Chicago with some success. But 
the results of attempts to replicate Operation Ceasefire and the 
Comprehensive Gang Program Model in other jurisdictions have been 
disappointing. Replications of the Ceasefire model in Los Angeles and 
Indianapolis produced no evidence that efforts to disseminate a 
deterrence message had changed the behavior of gang members. Meanwhile, 
replications of the Chicago model in five cities produced mixed 
results, with just two sites reporting reductions in participants' 
violent behavior that approached statistical significance. Prevention 
and intervention appeared to lag far behind suppression efforts in the 
many sites. The Los Angeles Ceasefire evaluators concluded: ``We 
suspect that the carrot side of these interventions will always lag far 
behind the stick side in spite of the best intentions that it not do 
so, unless some extraordinary efforts are made'' (emphasis added). A 
recent analysis concluded that two-thirds of resources expended on gang 
reduction in Los Angeles have gone to suppression activities.
    African American and Latino communities bear the cost of failed 
gang enforcement initiatives. Young men of color are disproportionately 
identified as gang members and targeted for surveillance, arrest, and 
incarceration, while whites--who make up a significant share of gang 
members--rarely show up in accounts of gang enforcement efforts. The 
Los Angeles district attorney's office found that close to half of 
black males between the ages of 21 and 24 had been entered in the 
county's gang database even though no one could credibly argue that all 
of these young men were current gang members. Communities of color 
suffer not only from the imposition of aggressive police tactics that 
can resemble martial law, but also from the failure of such tactics to 
pacify their neighborhoods. One researcher argues that in Chicago, for 
example, a cycle of police suppression and incarceration and a legacy 
of segregation have actually helped to sustain unacceptably high levels 
of gang violence.
New York vs. Los Angeles
    The contrast between America's largest cities--New York and Los 
Angeles--provides a case in point. In New York City, a variety of 
street work and gang intervention programs were fielded decades ago 
during a period when gang violence was on the rise. These strategies 
were solidly grounded in principles of effective social work practices 
that fall outside the realm of law enforcement, and they seem to have 
helped dissuade city policy makers and police officials from embracing 
most of the counterproductive gang suppression tactics adopted 
elsewhere. No seasoned New Yorker would deny the existence of street 
gangs. But gang-related offenses represent just a tiny blip on the New 
York crime screen. Gang experts conclude that the city's serious 
problem with street gang violence had largely faded away by the end of 
the 1980s. Youth violence remains a problem in some New York City 
neighborhoods, but with crime falling to historic lows, the city's 
approach to gangs and youth crime seems to be remarkably effective.
    Compare New York to Los Angeles, where gang violence is epidemic. 
City and state officials have spent billions of dollars on policing and 
surveillance, on development of databases containing the names of tens 
of thousands of alleged gang members, and on long prison sentences for 
gang members. Spending on gang enforcement has far outpaced spending on 
prevention programs or on improved conditions in communities where gang 
violence takes a heavy toll. Los Angeles taxpayers have not seen a 
return on their massive investments over the past quarter century: law 
enforcement agencies report that there are now six times as many gangs 
and at least double the number of gang members in the region. In the 
undisputed gang capital of the world, more police, more prisons, and 
more punitive measures haven't stopped the cycle of gang violence. Los 
Angeles is losing the war on gangs.
    The contrast can be seen clearly in the crime statistics: The Los 
Angeles Police Department (LAPD) reported 11,402 gang-related crimes in 
2005. That same year, the New York Police Department reported just 520. 
FBI crime reports indicate that New York's homicide rate that year was 
about half of Los Angeles', while the rate of reported gang crime in 
Los Angeles was 49 times the rate reported in New York City. Yet absent 
better alternatives, lawmakers across the country risk blindly 
following in Los Angeles' troubled footsteps. Federal proposals--such 
as S. 456, the ``Gang Abatement and Prevention Act of 2007''--promise 
more of the kinds of punitive approaches that have failed to curb the 
violence in Los Angeles.
A better way
    Our report does not endorse any particular program or approach for 
reducing the damage done by gangs and gang members. Instead, it points 
toward actions we can take to reduce youth violence. The most effective 
route toward reducing the harm caused by gangs requires a more 
realistic grasp of the challenges that gangs pose. The objective should 
not be to eradicate gangs--an impossible task--but rather to promote 
community safety. As one community stakeholder observes, ``The problem 
is not to get kids out of gangs, but the behavior. If crime goes down, 
if young people are doing well, that's successful.''
    The lessons from the past and results from research on more recent 
innovations in juvenile justice policy point toward more effective 
public safety strategies:
    * Expand the use of evidenced-based practice to reduce youth crime. 
Evidenced-based practices are those interventions that are 
scientifically proven to reduce juvenile recidivism and promote 
positive outcomes for young people. Rather than devoting more resources 
to gang suppression and law enforcement tactics, researchers recommend 
targeting funding to support research-based programs operated by 
agencies in the health and human services sector. As Peter Greenwood, 
former director of the RAND Corporation's Criminal Justice Program and 
an evaluator of Operation Ceasefire in Los Angeles, notes, ``Delays in 
adopting proven programs will only cause additional victimization of 
citizens and unnecessarily compromise the future of additional youth.''
    * Promote jobs, education, and healthy communities, and lower 
barriers to the reintegration into society of former gang members. Many 
gang researchers observe that employment and family formation help draw 
youth away from gangs. White youth have greater access to jobs and 
education, which may explain why there are many white gang members but 
little discussion of a chronic white gang problem. Creating positive 
opportunities through which gang members can leave their past behind is 
the best chance for improving public safety. This requires both 
investing resources and reforming policies and practices that now deny 
current and former gang members access to these opportunities.
    * Redirect resources from failed gang enforcement efforts to proven 
public safety strategies. Gang injunctions, gang sweeps, and ominous-
sounding enforcement initiatives reinforce negative images of whole 
communities and run counter to the positive youth development agenda 
that has been proven to work. Rather than promoting antigang rhetoric 
and programs, policy makers should expand evidence-based approaches to 
help former gang members and all youth acquire the skills and 
opportunities they need to contribute to healthy and vibrant 
communities.

    Mr. Scott. Thank you very much.
    Dr. Scharf?

   TESTIMONY OF PETER SCHARF, EXECUTIVE DIRECTOR, CENTER FOR 
              SOCIETY, LAW AND JUSTICE, AUSTIN, TX

    Mr. Scharf. Chairman Scott, Ranking Member Forbes, it is an 
honor to be here. I want to continue, I think, what Kevin 
started, which is to tear some of the assumptions apart as to 
how we deal with the gang issue. We really have two different 
paradigms at work.
    One paradigm--and many cities are using it--is the 
interdiction paradigm. In Las Vegas they have a Squad-Up 
program that sort of proactively attacks gangs. In other 
cities, such as Minneapolis, they attempt to work with kids, 
deal with some of the underlying social issues and ameliorate 
gang risk through prevention and early intervention. In truth, 
it is a 200-year debate.
    In the early 19th century there was a debate between people 
who believed in environmental stimuli as the cause of 
delinquency and those who believed in innate depravity. And you 
look in recent history we have things, programs such as Weed 
and Seed. We have community precincts with radically different 
assumptions.
    And I think it is important that, as we look at the 
different bills under consideration, we think about really what 
are the differences. But here are a few things I think that are 
different between what is being proposed in the Schiff bill and 
that in the Scott-Thomas bill, which is under development.
    In the Schiff bill, we have a balanced approach, but with a 
very strong interdiction approach that could result in large 
numbers of young people being sent to jail, sent to prison, 
especially those on the fringes of gang activity, as well as 
prevention efforts and some research efforts in the gang 
institute approach. In the Scott bill we have an attempt really 
to do four different things. One, to fund local communities 
with intensive early intervention and prevention resources to 
address and to provide a wide variety of evidence-based 
programming toward young people.
    The second is to support and refine what we believe to be 
evidence-based by continuing the research. And the third thing 
is to train police officers in working with young people, not 
in terms of interdiction model, but in terms of understanding 
adolescent behavior and the legal and ethical issues related to 
diverting them from the criminal justice system.
    In the Schiff bill I think there is an emphasis, a belief, 
in the model of deterrence and incapacitation, that if you 
incapacitate large numbers of gang members, potential gang 
members and create general deterrence the public safety will be 
increased. In the Scott bill I think there is an assumption 
that, through reducing the underlying risks that lead to gang 
activity, that that will, in the long run, result in public 
safety.
    And looking at the two bills through two different lenses, 
I think, may be productive for these discussions. One is what 
is the evidence behind each of these two positions. In terms of 
the Schiff bill, there is a disconnect, I think, between 
increasing prosecutorial resources with the goal of increasing 
deterrence and incapacitation in the sense there may be minimal 
evidence that that, in fact, works.
    The most probable case, as we heard, in the crime summit on 
June 22nd, is that if you increase prosecutorial resources and 
you increase police capacity, what happens is you run up 
incredibly high criminal justice costs with the argument that, 
in fact, in the long run you increase public safety is almost 
nil.
    There is a study by Pontell of the capacity to punish, 
which argues that the reason we have the rise, as Chairman 
Scott said, from 200,000 in 1931 when I started work in the 
system, to 2 million inmates today, has very little to do with 
changing crime risks. What it has to do with is increasing the 
capacity to punish by facilitating prosecutions such as is 
funded under the Schiff bill. Is there a chance that, in fact, 
what will happen is we will increase our criminal justice costs 
with no concurrent increase in safety?
    If you just take--I developed a model in my presentation 
where I just assume, let us say, you have 2,000 kids a year who 
are incarcerated through the enhanced resources. Over the 
lifetime of a bill, a 10-year lifetime of the bill, the costs 
could be up to $8 billion. If we took that $8 billion and used 
it for other purposes, how many special education teachers, 
doctors in the inner city schools could be funded and schools 
built?
    So the argument that in one bill we know that, given the 
evidence--well, we haven't been given the evidence of whether 
it worked. The one thing that is certain is we will increase 
the costs.
    The Scott bill under preparation, the PROMISE bill, if 
assuming reasonable success of the prevention measures, each 
year the bill becomes a better deal, a better bargain for the 
taxpayer, in the sense your underlying risks will be reduced 
and your criminal justice costs will be abated. I strongly 
support consideration of this alternative paradigm.
    Harry Lee died yesterday, the sheriff in Jefferson Parish. 
They took him to New York--from John Jay College he said, you 
have come here expecting the criminal justice to solve the 
problems we have in New Orleans, which are obvious to 
everybody. And in fact, the system may be the problem as much 
as the cure.
    And if you look at the bill, this hybrid bill that is 
proposed by Congressman Schiff, the risk is that, in fact, the 
criminal justice system becomes its own dynamic, more kids 
become involved in the system, the costs become excessive, and 
also--the disease caused by the treatment, that kids who would 
otherwise not stay in the gang life will, in fact, through the 
criminal justice system become identified--and trapped into 
that system.
    Again, summarizing, what do I think? One, this is a huge 
problem, astronomic problem financially. The liability is 
enormous. We have two different choices, two different 
paradigms of how to proceed, one, of a focus on prevention, the 
other, the focus on interdiction and high-cost correctional 
alternative. I think the choices are profound and absolutely 
essential to be considered objectively. Thank you.
    [The prepared statement of Mr. Scharf follows:]
                   Prepared Statement of Peter Scharf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you. And I want to thank all of our 
witnesses for their testimony. We will bring 5-minute 
questioning beginning with the gentlelady from California, Ms. 
Waters.
    Ms. Waters. Well, thank you very much, Mr. Chairman.
    And I would like to thank all of our witnesses who are here 
today.
    As I have listened, starting with Mr. Walsh, who thinks 
there are constitutional problems with H.R. 3547, Judge Jones, 
who talked about the lack of family support and children who 
are looking for love, support and attention, to Mr. Roper, who 
says they are doing a fine job, and they are being successful, 
to Mr. Seave, who said that you don't believe that we can 
arrest our way out of this problem, to Mr. Pranis, who had just 
wonderful research based on gangs and got rid of for me a lot 
of the notions about who gangs are, how they operate, to Mr. 
Scharf, who talks about the two different approaches and how we 
could end up just increasing young people's involvement in the 
criminal justice system and exacerbating the problem.
    I don't hear any support for this bill, H.R. 3547, even 
though Mr. Seave said he supported the bill. And I don't know 
if he has read the bill or not. I think the idea of some 
suppression, prevention and intervention as you described it, 
makes good sense. But when you take a look at the bill, do you 
know the definition of a criminal street gang in the bill?
    Mr. Seave. Yes, I do.
    Ms. Waters. What is it?
    Mr. Seave. The definition of a criminal street gang has 
several elements. I believe it requires 5 individuals, each of 
them has to have committed a criminal street crime, as defined 
in the statute, which is one of the listed Federal felonies, or 
a serious State felony requiring 5 years or more of 
imprisonment involving violence. And these 5 individuals have 
to have collectively committed three serious gang crimes. So 
that is my understanding of the definition.
    Ms. Waters. Does that definition bother you at all?
    Mr. Seave. The definition does not bother me. Perhaps I 
could explain why.
    Ms. Waters. Does it fit any other associations that you 
could think about of people who may be in an association in 
some way, some of whom, at least three or more--let us see, as 
you have described, with 5 or more persons, each of whom have 
committed at least one so-called gang crime. And these gang 
crimes are being--a new definition of crime, some of which, I 
guess, overlaps with what is considered a State crime now.
    Mr. Seave. Yes.
    Ms. Waters. Could this then fit other groups or 
organizations other than so-called gangs or certain 
associations?
    Mr. Seave. Well, as I read this, the creation of this new 
Federal crime, I read it as being somewhat similar to the RICO 
statute but different. I read this as a former prosecutor 
creating, frankly, a high bar to be able to bring a 
prosecution.
    Ms. Waters. But all five need not have committed the three 
crimes. Is that right?
    Mr. Seave. No, all five need to have collectively committed 
three crimes, plus each individually needs to have committed 
one crime.
    Ms. Waters. That is not how I read it at all.
    Mr. Seave. Okay. I am focusing on the word collectively 
committed.
    Ms. Waters. Let me just move on to the database collection, 
the collection of names where people will go into a database. 
Are you familiar with the database that in Los Angeles, for 
example, that has been created of gang members?
    Mr. Seave. Yes.
    Ms. Waters. Would you feel comfortable in saying that 
everybody on that list is a gang member?
    Mr. Seave. No.
    Ms. Waters. Do you think it is a good idea to create these 
databases that stigmatize young people for the rest of their 
lives who may not be in gangs?
    Mr. Seave. I think having databases for law enforcement for 
intelligence purposes are important. I think, frankly, there is 
a lot of room for improvement in the database that you are 
talking about, the need to really look at how people who are in 
that database can exit out of it and to make sure that those 
provisions are applied.
    Ms. Waters. Are you aware that there are young people who 
live in neighborhoods where there may be a gang, and if you ask 
them if they belong to the gang, they will say ``yes,'' but 
they don't really belong to the gang?
    Mr. Seave. I am not personally aware of that, but I can 
believe that that is possible.
    Ms. Waters. Well, do you understand why they do it?
    Mr. Seave. Yes.
    Ms. Waters. Why?
    Mr. Seave. They do it perhaps out of fear of the gangs.
    Ms. Waters. That is right. And they end up in a database 
because they say they belong to a gang to be a part of the 
neighborhood. I don't mean to grill you. I just wanted to walk 
through some of this because I know a lot about gangs.
    I have worked in the Los Angeles area for the past, you 
know, 30 years or more. And I have worked with a lot of young 
people in public housing projects, many of whom have been in 
gangs, many of whom, just as Mr. Pranis said, were in gangs who 
became productive members of our society. And while we are all 
concerned about gangs and want to do something about them, I 
think we have to be very, very careful that we understand, and 
that we simply do not move to criminalize or to stigmatize 
young people and whole communities with a bill like this.
    Because in this bill, the whole community is identified as 
a high gang activity operation, kind of. And I think we have to 
be very, very careful.
    Some of our Members not only are concerned about gangs, but 
they really do think it makes them a better legislator because 
they are tough on crime and they get reelected on these kind of 
issues. I don't intend to sit in this Committee and not raise 
the kind of questions that I think should be raised about this 
serious, serious, serious leap into trying to come up with a 
bill, where many people don't even understand what they are 
doing when they look at these definitions and these databases 
and all of that.
    So I just simply wanted to say I appreciate that everybody 
here at least have shown that they understand that this is not 
an easy thing to do and that you really do believe in 
prevention and intervention and not simply suppression. And 
there is a lot of suppression in this bill, a lot of Federal 
intervention in ways that Mr. Walsh says would cause some 
constitutional problems.
    And so, even for my colleagues who were here today I intend 
to share with them that those of us who have worked on these 
kinds of issues are not going to easily support this kind of 
bill. And I yield back the balance of my time.
    Mr. Scott. Thank you.
    The gentleman from Virginia, the Ranking Member, Mr. 
Forbes?
    Mr. Forbes. Thank you, Mr. Chairman. And once again, I want 
to thank all of you for being here and our previous panel. I 
apologize because I would love to sit down and talk with all of 
you. And I have worked on gangs a lot, but I know all of you 
have. And I would just love to by osmosis pick up some of what 
you have in your head.
    My good friend, Judge Jones, I know, has worked on these 
issues for a long time. And unfortunately, the logistics of how 
we are set up with seven previous panelists that we couldn't 
even ask questions to and now we have seven new--and I have 5 
minutes. I just can't do it.
    So I want to try to hone in on some things that are here. I 
want to compliment Mr. Schiff. I don't agree with everything in 
this bill. I think maybe there are some things I would like to 
take a little further. But he has worked hard in this area over 
years. And we may disagree, but I certainly recognize his 
expertise, as I do the other Members that were here before and 
all of you.
    But, Mr. Seave, I would like to follow up on some comments 
that you made, because you are now the California Director of 
Gang and Youth Violence Policy. You are the big guy there 
looking at the gangs.
    And I am sure you have spent a lot of time in an 
evidentiary base analyzing this and pulling data together. And 
you know, you are not going to make statements that are off the 
cuff without doing the analysis. And the other side brought you 
here. We didn't, so I get to ask you, you know, some questions 
on that.
    And the one question--Mr. Walsh kind of feels like Federal 
Government shouldn't be involved in this at all. You, I take 
it, since you support this bill, feel the Federal Government 
should be involved. And you are nodding your head, so I take it 
that is a yes, that Federal Government should be involved. 
Correct?
    Mr. Seave. Yes, sir. Yes, sir.
    Mr. Forbes. And you mentioned the concern with suppression. 
I know you were a Federal prosecutor before. Tell us what the 
Federal Government can do that the local and the State 
government can't do in terms of suppression. Because I notice 
you said here that the primary responsibility ought to belong 
to the communities and the State government. What do you need 
the Federal Government to do, suppression-wise?
    Mr. Seave. Let me give you an example. And it was something 
that happened when I was United States attorney. I am sure that 
this Committee has heard testimony about Operation Cease Fire 
in Boston. We did a similar operation like that in Stockton. 
Stockton at that time was suffering from an epidemic of gang-
related homicides.
    And Operation Cease Fire is an effort to bring in, identify 
the dangerous gang members, not all gang members, not all 
members of the community, to bring them together and to 
essentially warn them if you continue the violence, then----
    Mr. Forbes. I know. But why couldn't a State do that?
    Mr. Seave. A State could do it.
    Mr. Forbes. Okay.
    Mr. Seave. But the additional----
    Mr. Forbes. But I want you to address--and I don't mean to 
cut you off. It is just I have got a limited amount of time.
    Mr. Seave. Right. Sure.
    Mr. Forbes. The Chairman will gavel me. I want to ask you 
what do you have to have the Federal Government to do, 
suppression-wise, that the State and the local community can't 
do.
    Mr. Seave. Sure. The Federal Government had more resources.
    Mr. Forbes. I know. I understand you can always pay more 
dollars to do it. But what do you need the Federal Government 
to do from a suppression point of view? Why is it important 
that the Federal Government get involved, other than dollars, 
just dollars? Why is it important for suppression?
    Mr. Seave. By resources, I meant, for example, 
investigative tools. We have the grand jury, which is a very 
effective investigative tool. The State and the local does not 
have that kind of investigative tool.
    Mr. Forbes. So you need a grand jury that can go on a 
larger multi-jurisdictional area. Is that a fair assessment?
    Mr. Seave. Yes, yes. In addition, we have the ability--the 
State has to some degree--we have a great ability to use 
wiretaps. And wiretaps are a very effective way to investigate 
a crime, not go in and kick down doors and alienate everybody, 
but to target your investigation, get your evidence, and 
effectually, your arrests, which is what we did.
    Mr. Forbes. And you have more venue opportunities with the 
Federal Government, correct?
    Mr. Seave. That is correct.
    Mr. Forbes. With prosecution. Now, you can quantify the 
dollars that are needed perhaps to do some of that suppression-
type of activity. But now tell me on the prevention side of it. 
What is it that only the Federal Government could do, not 
because of money, but just because of the Federal Government 
that the State and the local government couldn't do.
    Mr. Seave. They need to do research on programs, I think.
    Mr. Forbes. That is money. I am talking about what could 
only the Federal Government do that the State and local 
government couldn't do.
    Mr. Seave. Well, I think it is money, but I think it is 
more than money because research is done nationally. To be able 
to collect national research, national evaluations, bring in 
experts from all over the country in order to conduct 
evaluations, find out what works and what doesn't work requires 
a national effort. I mean, California itself----
    Mr. Forbes. How much money would you need to do that kind 
of effort?
    Mr. Seave. It would be millions of dollars.
    Mr. Forbes. How much, do you know?
    Mr. Seave. I am sorry, I don't know.
    Mr. Forbes. Well, the reason I ask that is you were able to 
testify here that it ought to be 50-50 breakdown. Where do you 
come up with the dollars to make it 50-50 in terms of the 
allocation of dollars?
    Mr. Seave. The 50-50 breakdown in the bill at the high-
intensity gang area is an effort to split the money in half.
    Mr. Forbes. I know what the effort is. But, I mean, how do 
you testify here today that that is the amount of resources you 
need? Have you done anything at all to calculate how many 
dollars you need to do what you think needs to be done?
    Mr. Seave. No, I have not done a calculation.
    Mr. Forbes. Okay.
    Mr. Roper, I just want to ask you this question because as 
I understand it, when we come down to just looking at evidence 
and facts, if I understood your testimony, you stated that when 
you prosecuted gangs in Dallas, you had a 47 percent drop in 
murder, rape, aggravated robbery, assault. Did I miss----
    Mr. Roper. In that target area that we were looking at.
    Mr. Forbes. Where you prosecuted the gangs?
    Mr. Roper. Yes, sir.
    Mr. Forbes. How about Fort Worth? You had a 10 percent 
drop----
    Mr. Roper. Yes, that was----
    Mr. Forbes.--when you prosecuted the gangs there?
    Mr. Roper. And what I try to do is pull out some examples 
of success we have had by targeting these drug trafficking 
gangs and try to essentially get them off the streets.
    Mr. Forbes. Now, you have heard some comments today about 
mandatory sentences and how they are so horrible and so bad. As 
a prosecutor, mandatory sentences useful to you, not useful to 
you? What do they do?
    Mr. Roper. In my experience, I think over the last 20 years 
as a Federal prosecutor, they have come in handy in dealing 
with--if they are used in the right way--to either obtain 
cooperation. That is a great vehicle, even if you don't impose 
the mandatory minimum.
    You have that ability to garner cooperation. And also you 
have the ability to essentially take out of the community some 
really bad people. And a 47 percent reduction in that area--I 
went up to a Weed and Seed community meeting, and a lady came 
up to me in that area.
    And she said, ``You know, thank you for doing that 
initiative in that area, because if we hadn't had that 
initiative, I couldn't go out of my house at night.'' So 
sometimes there are some individuals that really you have to 
incarcerate to make the community safer. And that is when 
mandatory minimums come into play.
    Mr. Forbes. Last question for you, you heard the previous 
panelists, one of the legislators, talk about witness 
intimidation. What is more important, to give money to the 
witness to try to protect them, or to keep the defendant 
incarcerated so they can't get back out?
    Mr. Roper. We obviously want to put the defendant in jail 
so they don't deal with the person, the witness and intimidate 
him. That is the best deal. And I think our failed prevention--
some of the provisions to try to strengthen the bill, the 
reform act, would go a long way in helping us deal with any 
witness intimidation.
    Mr. Forbes. Okay, thank you. My time is up.
    I yield back.
    Mr. Scott. Thank you.
    The gentleman from Massachusetts?
    Mr. Delahunt. Mr. Seave, I mean, you mentioned that States 
don't have investigative grand juries. Did I hear you say that?
    Mr. Seave. Not in the way that the Federal grand jury 
operates. The State grand jury is limited in its jurisdiction. 
The State grand jury----
    Mr. Delahunt. How is it limited in its jurisdiction? 
Because I must have been, you know, living in a----
    Mr. Seave. Outside of California.
    Mr. Delahunt. Outside of California? I happen to come from 
Massachusetts. I was a State prosecutor for 22 years. And I 
utilized grand juries in an investigative capacity frequently. 
As far as wiretaps is concerned, my office conducted more--let 
me emphasize this--court authorized wiretaps in a single year 
than the FBI did nationally. So with all due respect, sir, I 
have to vigorously disagree with those two observations you 
made about State jurisdictions. That is just inaccurate.
    Mr. Seave. Well, I believe it is accurate in California. I 
recognize that it is inaccurate for Massachusetts.
    Mr. Delahunt. I would daresay that my colleagues who served 
as State prosecutors all over the country would disagree with 
your conclusions. But having said that, let me just pursue the 
line of questioning that was being posed by the Ranking Member.
    My experience has been that street crime, crimes of 
violence are best prosecuted at the State level. My own sense 
is that the role of the Federal Government is to provide 
resources. When we talk about the FBI and the ATF in the vast 
majority of cases, the information in task forces and 
collaborative efforts are developed at the State level.
    The informants are the informant of, if you will, the 
detective bureau in the local police department. And most local 
and State jurisdictions will share that information with the 
FBI. The FBI rarely develops information independent of State 
and local prosecutors' office and investigative agencies. That 
is just the reality.
    Most FBI walk around with suits on, very difficult to, you 
know, go up to a kid in an economically deprived section with a 
suit and a tie on and say do you want to be an informant. I 
mean, the reality is violent crime in this country is addressed 
at the local and State level. And they ought to be provided 
resources.
    And on occasion, I think you are correct about doing 
research and providing forensic services. But I am concerned in 
the Schiff bill--and I have great respect for my colleague--
there are references about the FBI leading these task forces. I 
think maybe it was the sheriff, David Reichert, earlier talking 
about FBI-led task forces.
    You know, we have a real problem here. We are having an FBI 
that, according to the director of the FBI, is reconsidering 
its mission and its emphasis in terms of anti-terrorism. And we 
are going to task them now with doing, you know, investigations 
into street crimes? Call it what you will, gang violence. But I 
daresay we need to hear from the director of the FBI as to what 
vision he has in terms of the future of the FBI.
    There was a recent report out that referenced a new 
intelligence effort mimicking, I think, M-15 on, you know, that 
the United Kingdom utilizes. So even before we get to these 
issues, you know, you can slap things together and yet it 
doesn't coincide with what the reality is on the ground.
    And I always, you know, fall down on the side of 
prevention. I think it makes a lot of sense. And you know, I 
think one of you indicated--I mean, gangs--this is not a new 
phenomenon. Maybe in terms of the order of magnitude and the 
transnational aspects of it. But gangs have been around since I 
was a kid.
    I mean, we used to have gang wars back in my era. And I 
know there are programs out there that exist today, if we 
looked at them and did, I think, a real solid analysis based 
upon empirical data--not necessary to go reinvent the wheel and 
maybe tweak around the edges.
    So, you know, I believe in joint task forces. I mean, we 
talk about drugs being the fuel, if you will, for gang 
violence. And yet we are talking about the FBI. Maybe we should 
be talking about the DEA.
    You know, I just think we need a lot more in terms of 
having a single panel of, you know, seven, I am sure, 
preeminent individuals in the area of criminal justice coming. 
But take this thing one by one.
    Go out, analyze what works. Let us be smart about it. What 
has worked in the past? Let us not reinvent the wheel. And what 
is the reality out there today in terms of gang violence?
    We can update it. As far as mandatory sentences, are they a 
good thing? Of course, they are a good thing if you want to 
squeeze somebody. You know, you give them an option, and 
oftentimes they are going to tell you what you want to hear.
    And oftentimes it is not the truth, because when you have 
got somebody and you are saying I am going to give you 20 
years, now tell me about Joe, well, he is going to tell you all 
about Joe because he is not a fool. And I bet he doesn't carry 
around with him a copy of the, you know, United States criminal 
code to check the penalties.
    I will yield back.
    Mr. Scott. Thank you.
    The gentleman from California, Mr. Lungren?
    Mr. Lungren. Thank you very much, Mr. Chairman. And thank 
you for having this hearing. I find it very interesting, even 
though I wasn't here personally. I was monitoring it from my 
office on television to listen to the various commentaries. And 
there is a little bit of truth in everything everybody says 
here.
    All I can do is my experience 8 years in California where 
we saw a drop in violent crime by over 35 percent. And we saw a 
drop in homicides by 50 percent. Now, I don't know how you 
stack those things up, but it seems to me that means people's 
lives were saved.
    If you can cut the homicide rate by 50 percent, that means 
something to people on the street because half the people 
otherwise would be homicide victims or not homicide victims. 
And I think part of it was tougher laws. And I will even say 
some of the laws that allowed us to prosecute juveniles as 
adults were appropriate.
    But as I said then, and I will repeat it now. And, Judge, I 
think you are absolutely right. We can't put everybody in 
prison. We can't suppress our way out of a crime wave that 
affects our young people. And I understand how we are trying to 
solve the problem at all levels, the Federal Government level, 
the State government level, and every other level.
    And, Judge, I think you were right on when you talked about 
the loss of that connection that we call the family, because 
when I had a task force from about 17 different disciplines, 
including law enforcement and social workers, mental health 
workers who spent a year and-a-half looking at the problem, one 
of the conclusions we came to is exactly what you said. The 
gangs are for many of these young people the families that they 
miss. The authority that they don't have anywhere else in their 
life is in a perverted way in the gang.
    The actions that they take that are anti-social, that are 
violent, that are destructive and that we see from the outside 
as being self-destructive are, in fact, acts of affirmation 
within the context of a gang that serves as the surrogate 
family for them. And I am almost at a loss to see how we are 
ever going to successfully attack it when we are attacking it 
from the opposite side of where the problem is.
    Now, to describe the problem is a lot easier than to solve 
the problem, because we have a culture today that tells us 
families are not important, that adults are more important than 
children, and adult responsibility trumps responsibility to 
children every time. And it is reflected in our actions. And it 
is reflected in our culture.
    And so, at the one time we are sitting here worried about 
the violence that is going on and how kids are attracted to 
violence, kids have always been attracted to violence. But now 
it has been put on an altar of celebration by our culture. And 
we are trying to overcome that with tougher laws and greater 
sentencing and then also programs where we try and act as the 
parents that they are missing.
    And you know, the real thing is always better than the 
artificial. And so, what we are dealing with here is how do we 
construct those artificial mechanisms that might prevent the 
attraction that kids have, the young people have to it. At the 
same time, responding to the cries of the people in the 
community that are being victimized.
    I remember going and having a school safety program at one 
of the high schools in Los Angeles, and after it was all over, 
having a young girl come up to me. She was about 14 or 15, 
African-American. And she said why is it that it took the death 
of one of my fellow students before you adults got your act 
together.
    Because a young man had been killed by another person who 
had brought a gun to school. It had discharged accidentally. He 
brought it to school to protect himself, he thought, from other 
things.
    And I understand why every governor in every State would 
like more money. In fact, I even thought I would be in that 
position one day. It didn't happen.
    But that doesn't determine what the appropriate Federal 
responsibility is and how we would parcel out our authority and 
our money. It is easier, I think, to justify us if we have the 
money, sharing the money than it is in some ways always 
assuming that the feds are best.
    And, Mr. Seave, I have got great respect for you, but I 
must take issue with your delineation of the difference between 
the ability of the feds to go after a certain crime and 
networks under their Federal grand juries in State.
    I remember my friend--I know you know him, George 
Williamson. I think the best, in my own opinion, the best 
prosecutor in California. He was my top criminal justice 
supervisor. And the cases down in Yosemite where the feds went 
in and copped a plea to the guy down there using their grand 
jury powers. And George went in there and got the death penalty 
after he got the California grand jury system to work to indict 
that individual and to prosecute him.
    I think at times what works best is multi-jurisdictional 
task forces so long as the State or local agency or department 
has at least a co-equal authority because I have seen too many 
task forces where the feds take over and only they know what is 
right and how to do things. And the gang problem is a national 
problem because it affects many parts of this Nation.
    But it is essentially a local jurisdictional problem. And 
it is one that we have to attack at that level. I know I am 
meandering in my thoughts, but I am just trying to respond to 
all the things that I heard here today.
    And, Judge, you are the one that hit me the hardest because 
I think you are absolutely right. We are going to continue to 
be the proverbial dog chasing its tail so long as we don't 
understand what the destruction of the family unit has done to 
our society, but more particularly, to our children. And what 
we are all doing is trying to clean up after we have allowed 
tremendous problems to occur. And it is always tougher to try 
and deal with it.
    So I appreciate what you are doing. And I appreciate your 
sentiment. And at times as we--and I think all of us here want 
to deal with the gang problem. And we have some differences 
about how to do it and where emphasis ought to be.
    But I hope as we do that we will understand fundamentally 
where kids are denied the network that is the family, they are 
going to look elsewhere. And so long as that continues to be an 
acute problem in this country, we will have gangs. And we can 
do what we can to try and minimize the attractiveness of 
violence within those gangs. But if we are going to truly deal 
with the problem, we are going to have to get back to basics 
and figure out what we do as a society to give the kids what 
they need before they reach out and find this as that missing 
context in their society.
    I thank the Chairman.
    Mr. Scott. Thank you. Thank you very much.
    The gentleman from Georgia?
    Mr. Johnson. Behold, how wonderful, how good and pleasant 
it must be for politicians to make their way back to their 
respective districts and to be able to pound on their chests 
and say how tough that we have been on crime. And politicians 
have been following that track religiously since at least 1970.
    And after remaining roughly steady through most of the 20th 
century, the U.S. incarceration rate has soared 470 percent, 
about one out of every 133 U.S. residents is in prison or jail 
today, as opposed to one out of every 620 in 1970. Behold, we 
have been so tough on crime that it has had such a great impact 
it has actually reduced crime. No, I don't think so.
    Many more people are on probation or parole. The current 
U.S. incarceration rate is the highest in the world and far 
exceeds the global average of approximately one out of every 
602 persons. I mean, as we get tougher on crime, as these 
proposals do, we are not producing a decrease in crime.
    And it is coming at a great societal cost to those who 
choose to follow the law. There must be some other way that 
will actually get at crime reduction, a way that is different 
than levying new or I will say overlapping and harsher 
penalties against wrongdoing. Would anybody on the panel agree 
with that statement?
    Everyone? Or would anyone disagree with it? No one will 
admit to disagreement. But let me ask Dr. Scharf.
    Mr. Scharf. Sure. Well, I mean, the irony--and I think 
Kevin said it so well. Here you have a decline in crime, and we 
have an increase in sanctions. And the numbers of people who 
would be projected to go through, you know, $400,000 
experiences or 10 years in jail. And just what you said, Mr. 
Johnson. And that is the absurdity of where we are right now.
    I mean, and the fiscal burden of the bill, I think, you 
know, you want the GAO or somebody to really look at this and 
really do a mathematical model. But, I mean, if you use this 
money for prevention, as everybody has said, for parenting, for 
childhood, with schools, with doctors, you would have a huge 
windfall.
    And why would you, just as you were saying, throw that 
money down the rat hole? And you know, the racial 
disproportionality, the human cost goes on top of that. I mean, 
why does society, in my view, want to invest in a great project 
for more jails?
    I mean, my daughter applied to UCB out in California, and 
she was told she couldn't get a fellowship because the 
correctional costs were 19 percent of the California budget. 
You know? And this is true all over the country.
    This is the moral equivalent of the military bankrupting 
society. You know? And I absolutely agree with what you said.
    Mr. Johnson. Thank you. In light of that, I think I have no 
further questions or comment. I will yield back.
    Mr. Scott. Thank you.
    The gentlelady from Texas?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman and the 
Ranking Member.
    And, gentlemen, thank you for your very instructive 
commentary. Forgive me for being detained in some other 
meetings. But I think I have lived through this for a period of 
time. I was an associate municipal court judge in the city of 
Houston. And so, we saw a lot of the truants and others in the 
judicial system.
    And we have an interesting structure in Texas, which I 
think is replicated in many places. And I think my good friend, 
U.S. Attorney Roper--I am looking without my glasses, so 
forgive me. But welcome back again--is familiar with our TYC in 
Texas. In fact, we had made some inquiries of the U.S. attorney 
about some of the crises that we were facing there.
    But our TYC, our Texas Youth Commission--you are assigned 
to the youth commission. And then that is the end of you. I 
mean, you don't really have a term per se, and you can enhance 
your term by chewing bubble gum or something else. But we have, 
I think, a crisis where we don't sometimes know what to do.
    I see my good friend who worked with me and continues to 
work with me--a case which involved individuals of a differing 
age in Texas. And then I would like to offer the backdrop of 
the Jena six, which I think is one of the glaring--two 
incidences.
    The Georgia case, a young man unfortunately caught up in 
the system on an incident in the graduating year, an African-
American, sexual case, still caught up in the system and then 
the Jena six, an individual tried as an adult. Thank goodness 
for the 3rd circuit in Louisiana who said that was wrong.
    So we have a crisis of huge proportions. And I raise these 
questions. And I am delighted that some of the Members who are 
here offered a number of legislative initiatives. But I am just 
going to go on the basic premise that there should be 
intervention.
    And I will give Mr. Walsh a chance. I am going to ask him a 
question directly. But I do think there should be intervention. 
Why? Because I think the Federal Government is a bully pulpit.
    And I think it has the ability to set the tone and maybe 
even, Judge Jones, copy from you because we are the bully 
pulpit. But we usually look at the State and say I like what 
Judge Jones is doing. Let me copy that. And we have had with 
the leadership of our Chairman, Chairman Scott, we have had 
that kind of interest.
    Let me go to Mr. Pranis because I just love what you said, 
if I have gotten the summary of it. Because this is what I 
believe. When you see gang exposes on TV, you see big guys with 
tattoos, and you see those guys, you know, also when you see 
prison stories, big guys with tattoos who graduated. You know, 
they are in their late twenties and maybe thirties. If you go 
to California, they have got grandpas.
    But you seem to be saying that we are losing the battle 
when we begin to just put a big umbrella or tent over these 
babies that call themselves gangs who are either following the 
big tattooed guys. We are chasing them down like regular mafia 
rather than intervention.
    For all we know, these kids are foster kids. These kids 
have not had the removal of the risk factors, which some 
Members have said. Help me understand that. And tell me where 
Federal intervention can work on understanding and responding 
to that population of which you can't intervene on.
    Mr. Pranis. Absolutely, I would be happy to. The profile of 
the typical gang member of the United States is between the 
ages of 12 and 15 years old. And most will leave the gang 
within a year. Right? Gangs are a transitory experience for 
most, a longer experience for some. And that is a concern.
    You know, I was part of a group discussion with a former 
gang member who talked about when these 20-and 30-year-old guys 
come around. And he said they are kind of weird. They are 
losers.
    They are these old guys who hang around us and they try to 
throw signs. But we don't know why. They are like get a life. 
Right? Like, this is kids stuff.
    I mean, gangs are first and foremost kids stuff. And I 
think they only become, you know, serious adult problems when 
there is such a negative environment to grow in and a negative 
law enforcement response.
    Ms. Jackson Lee. Or they get into the law enforcement 
system.
    Mr. Pranis. Or they get into the law enforcement system. 
They go to prison. They come back out, and all of a sudden, you 
know, that is all they have. Right?
    Ms. Jackson Lee. Well, what is your intervention? What 
would you offer?
    Mr. Pranis. Several things. One is just to provide them--
and the two things people cited before are families and jobs--
--
    Ms. Jackson Lee. And I just want to say can I get an answer 
on Mr. Roper and Judge Jones?
    Mr. Pranis. Yes. Families and jobs are two very big things 
and opportunity. So if you engage youth in basketball teams, 
you know, in jobs, most people naturally graduate and have for 
decades from gangs into jobs. Right?
    They have kids, suddenly they have got a kid. They need to 
support them. Their parents won't support them. And so, if 
there is job opportunities available, if there is housing 
available, if there is supports for families, including social 
workers to help the families do a better job with the kids, as 
Mr. Lungren pointed out, you know, those are the kind of things 
that are shown to work.
    New York is a wonderful model. But I also think, frankly, 
there is a whole lot of White kids in gangs. Yet we don't hear 
about a White gang problem.
    And I think part of the reason is the opportunities 
available to most White suburban kids to transition out of a 
gang are very different. But law enforcement also treats White 
kids in the suburbs very differently than Black and Latino kids 
in inner cities. And I think if we looked at what small towns 
and suburbs do, that is probably a much better model than what 
Los Angeles does in terms of successfully transitioning kids 
out of gangs and not creating those institutional problems.
    Ms. Jackson Lee. May I have--yes.
    Mr. Roper. I think my answer to this is, it is not just one 
solution. I always look at the model that we have now as the 
three-legged stool: enforcement, prevention and reentry. That 
stool with one leg doesn't work if you just use one leg.
    I think one of the panelists is missing the point if he 
thinks that incarceration hasn't had a positive effect in the 
drop of the crime rate. You look in Texas, Congresswoman, and 
remember the time when Texas had such a--everybody in the world 
could get parole at the drop of a hat. And we had a high crime 
rate.
    When we started having sure, certain sentences, the crime 
rate dropped. And it dropped all the way until 2006 in 
historical proportions. So enforcement does have a role.
    But I do agree that prevention and reentry strategies have 
to be in place to make a difference. And I think that is what I 
like about the Department of Justice's anti-gang initiative 
that it involves all three of that important legs of that stool 
for crime reduction.
    Ms. Jackson Lee. Judge Jones, does that work, putting them 
in jail all the time?
    Judge Jones. Well, there are a lot of people who have to be 
incapacitated and kept away from all the rest of us. That is a 
basic, I think, reality that we have to understand.
    The thing that I would like to at least comment upon as an 
intervention that you suggest is the part of the written 
remarks I didn't get to actually read. It just talks about 
reading, reading as a basic and fundamental skill that where 
reading deficiencies are the common characteristic of everybody 
who is delinquent and criminalized.
    And the courts that I sit in--and I have been involved as a 
prosecutor, as a criminal defense attorney, a juvenile defense 
attorney for 27 years, and I will tell you very few of the 
people that I ever represented were reading on their grade 
level. And to the extent that we can improve the reading and 
keep that achievement gap closed and thereby increase the 
opportunity that that person or the possibility, rather that 
that person will become significantly and gainfully employed.
    And if you talk to a lot of the kids who are out there 
getting in gangs, they will tell you, you know, I want a job. I 
would like to have a job. I wish I had a job that they can, you 
know, that they can support and sustain themselves on.
    So, I mean, I think that, you know, those are kind of--the 
basic academic achievement gap is one of the most important 
areas that all Government, all levels of government need to be 
focusing on if they really want to kind of eliminate these 
problems of delinquency, criminality of which gang crime and 
gang involvement is a part of it. It is not the whole thing. I 
will tell you it is certainly not the whole thing, but it is 
important.
    Ms. Jackson Lee. So the baggy pants kids need to learn to 
read, the kids that Kevin is talking about, Mr. Pranis is 
talking about?
    Judge Jones. They do need to learn how to read. And we need 
to be reinforcing, you know, reading and other things, other 
pro-social values. We don't get as much of that that we need. 
And these kids are not getting it from the significant adults, 
if there are adults in their lives, which is what I mentioned 
earlier. So we are behind the curve on trying to keep these 
kids moving in the right direction in the main stream toward 
the mainstream of society. And if they don't, then, I mean, we 
are going to get what we get.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    And I had a couple of questions. I would recognize myself 
for 5 minutes.
    Mr. Seave, there has been a lot of discussion about this 
definition of a gang crime.
    Mr. Seave. Yes, sir.
    Mr. Scott. And you mentioned five previous crimes. Are 
those committed or convicted?
    Mr. Seave. The statute just says committed.
    Mr. Scott. So after you have got the requisite number of 
allegations, when you have a defendant charged with, say, armed 
robbery who is a member of the gang, five people, other people 
in the gang have committed crimes, so that kind of designates 
it as a gang. And you have some totally different person in the 
gang charged with armed robbery.
    In that trial, does the prosecutor get to bring in all of 
those five? Well, he would have to bring in all of those five 
predicate cases to show that it is, in fact, a gang. Is that 
right?
    Mr. Seave. Congressman, I thought about that question. The 
statute doesn't answer that question. And I think it is really 
going to depend on the court.
    Mr. Scott. You have got to prove your case.
    Mr. Seave. Yes. But having prosecuted many cases, sometimes 
you have to prove it before the jury. Sometimes there will be a 
stipulation in order--the defense doesn't want that to go to 
the jury. And there will be a stipulation. How exactly that 
will be proven I am not sure. But that is a good question.
    Mr. Scott. Well, the question is that you are sitting up 
here charged with armed robbery. And before they get to your 
little allegations, they get in all the riff raff from all over 
the community and say, well, this is his friend, that is his 
friend. You have got murder, rape and mayhem. And then you get 
to his little allegation. All that is what the jury gets to 
see.
    Mr. Seave. Possibly and possibly not. It really depends on 
what the judge--on how the judge views the facts of the case 
and what is fair to the defense.
    Mr. Scott. If he wants to suggest that it wasn't a gang 
crime, isn't going to stipulate anything, you have got to prove 
all of the elements of the case before the jury. You get to 
parade in all the riff raff in the community and associate him 
with that riff raff. Is that not true?
    Mr. Seave. It could be true, yes.
    Mr. Scott. Okay. And so, he is being tried by association 
and scare the jury to death. And I guess you would parade in 
all these guys and present the evidence and call them to let 
them plead the 5th and let the jury see all that. And----
    Mr. Seave. I don't think that is the way it would proceed. 
I mean, if people are going to plead the 5th, that is not going 
to happen in front of the jury. If you remember, one of the 
elements of the crime is that the crime is committed to further 
the activities of the gang. So hopefully this isn't just--I 
mean, I would not support and I don't think the statute 
supports just charging somebody with a crime and parading in 
people for the sake of ruining their reputation.
    Mr. Scott. And well, you have to prove all of the elements 
of the case. You would parade in all of the riff raff, 
associate the defendant with that riff raff. And even if the 
jury were to conclude that this really isn't a gang crime, they 
know all of his friends and associates and all of their bad 
deeds.
    Let me ask Mr. Pranis and Judge Jones. Both got cut off. 
And I noticed in their written testimony they had specific 
recommendations as to what we could do. Why don't you take a 
minute to go through, starting with Mr. Pranis, what some of 
your specific recommendations are that you haven't been able to 
mention so far.
    Mr. Pranis. Sure. The general tenor is that we should be 
focusing on the behavior and not, in fact, on the eradication 
of gangs, which I think history has shown us is impossible to 
get the kids out of the behavior rather than the gangs. But the 
three recommendations are expanding the use of evidence 
practices to reduce youth crime. And that includes sort of 
social work interventions, particularly with the family.
    There has been tremendous advances in juvenile justice in 
figuring out what works for kids. And a lot of the researchers 
we interviewed pointed out that, while there is no really good 
evidence of what works for gangs specifically, there is lot of 
information about what works with delinquent kids. And so, we 
should be focusing on those practices.
    The second would be promoting jobs, education and healthy 
communities and, specifically, lowering barriers to social 
reintegration of former gang members. And that is where, I 
think, gang injunctions and databases are particularly 
dangerous, because what they can result in is the sort of black 
list of people who really need to transition out of gangs. And 
this becomes a barrier to their reintegration, which is the 
best way to reduce crime.
    And then third, I think we need to end the use of failed 
gang enforcement strategies in favor of effective public 
safety. It is not an argument against doing law enforcement and 
enforcing the law. It is an argument against gang-focused law 
enforcement because there is no evidence that having law 
enforcement organized around gangs as opposed to around crime 
and public safety makes any sense.
    Mr. Scott. Thank you.
    Judge Jones?
    Judge Jones. Well, I did get a chance to at least talk 
about the literacy, I think, that we all need to be really 
focused on as a common, kind of, criminogenic factor, the lack 
of literacy. But I just think also as a former State 
legislator, as a former head of a youth authority in a State 
and somebody who was responsible for a lot of the juvenile 
reform legislation that we went through in Virginia in the 
1990's, which was a direct response to the rising tide or the 
perceived rising tide of violence and criminality, the 
predators all across the countryside, as they used to say in 
Virginia.
    You know, I think it just would be very helpful if we would 
just kind of take a step back, pause, and look very carefully 
at what the results and outcomes of that have been. The point 
that I always lift up is that it costs in Virginia today 
$88,000 per year per bed to incarcerate a juvenile offender in 
our juvenile correctional center.
    It is up $8,000 from what it was 5 or 6 years ago when I 
was the head of the authority. And we have got to look very 
carefully at where we are, what we have gotten for all of that 
money. And that is, I think, something that I would just 
caution.
    You know, these automatic waivers, reverse waivers, 
lowering the age of transfer, all of the things that were 
rushed to implementation in the 1990's as a response for this 
has had a consequence. And it has had a very serious and 
expensive consequence.
    And a lot of places right now, a lot of States, are 
actually beginning to roll those policies back, because they 
have seen--and it is based upon, you know, very important 
research that has been done, a lot of it, as I said, 
university-based, a lot of it coming out of, you know, 
nonprofit, nonpartisan agencies that are looking at these 
things.
    And I just would hate to see, you know, that we kind of go 
down that road again in the allocation of significant 
resources, Federal, State and local into the kinds of things--I 
am not saying it has all been bad. And I am not saying, you 
know, that getting tough on crime--it has its place.
    The Lord knows I am not looked at as a soft touch judge, I 
will tell you that. But it is certainly, I think, informative 
that we kind of look backward and carefully look at how we have 
dealt with these things in the past because it is not all, you 
know, a great outcome.
    Mr. Scott. Thank you.
    Mr. Roper, I asked Mr. Seave about how you would prove a 
case if this definition were into effect. Is there any way you 
can avoid being able to present to the jury all the community 
riff raff and associate it with the defendant as part of the 
trial, proving your elements of the trial?
    Mr. Roper. Well, Mr. Chairman, of course, the department 
hasn't taken a position on the bill that is under 
consideration. But, you know, spillover effect is always a 
concern for a Federal judge in any kind of case, in conspiracy 
cases, even, in RICO cases, in continuing criminal enterprise 
cases. We face that all the time. And I think judges are able 
to use their discretion to try to avoid that.
    For instance, you know, you can't go in and claim the 5th 
in front of the jury. That is prohibited. You can't do that.
    Well, I would say that, you know, I only have 90 
prosecutors in my district. And I have 100,000 square miles, 
about 7 million people in that area. In the cases we bring, we 
can't fill the Federal court up with every drug trafficker or 
every gang member. We have to be selective in what we prosecute 
because we have so many other priorities.
    And I think the people we bring in to Federal court to 
prosecute these cases are folks that need to be prosecuted in 
Federal court. At least I hope we are doing that.
    Mr. Scott. Well, my concern was the conduct of the trial. 
Can you avoid having a defendant in a simple armed robbery 
case--can he avoid having everybody in the neighborhood who he 
has been associated with and all their crimes presented to the 
jury?
    Mr. Roper. Well, I think we have done that with the RICO 
statute, tried to avoid a spillover effect about that. In 
continuing criminal enterprises we have had it. It is similar 
to that. And I am not familiar enough with the legislation to 
give you an answer.
    Mr. Scott. Well, it is not law, so there is no judicial 
history on it.
    But let me ask one final question to Dr. Scharf. Can you 
explain the importance of having collaboration before you start 
figuring out a strategy, local collaboration in the locality, 
before you start doing a strategy?
    Mr. Scharf. Well, the research shows that, you know, it may 
not be the program effect, but it is the community effect, that 
the community is targeted on a goal of early intervention or 
prevention. So, you know, whether anger management or substance 
abuse training, multi-systemic therapy is better than something 
else we don't know. What we know is that when a community 
focuses through education on reducing the risk factors of 
juvenile delinquency and gang involvement, it works.
    And it is success stories like Dan Lungren mentioned 
before, the success in California--what we don't know was it 
the prisons or was it the community-oriented policing 
activities that you sponsored, you know, the community meetings 
that was the result. This is true in New York, Chicago, 
everyplace else that has done it.
    So the argument that yes, we increased sanctions and crime 
went down, we also increased community mechanisms, as Chairman 
Scott suggested. And as a criminologist, I think the answer is 
we really don't know what was more important. The argument that 
it really is the kind of community partnership that Chairman 
Scott mentioned is there in California, Illinois, 
Massachusetts, and New York where these huge crime reductions 
in the 1990's occurred.
    Mr. Scott. Thank you very much. And I would like to thank 
all of our witnesses for their testimony.
    Our Members may have additional written questions which we 
will forward to you and ask that you answer as promptly as you 
can in order they may be part of the record. Without objection, 
the hearing record will remain open for 1 week for the 
submission of additional materials. And without objection, the 
Committee stands adjourned.
    [Whereupon, at 3:43 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Mr. Chairman, I thank you for holding this very important hearing 
on ``Gang Crime Prevention and the Need to Foster Innovative Solutions 
at the Federal Level.'' When crimes are needlessly being perpetrated 
against citizens of this country, we as Members of this body have a 
duty to use whatever measures necessary to curtail such criminal 
behavior and ensure that we provide the most effective measures 
possible to be implemented and enforced to ensure the safety of all 
members of this society.
    I am pleased to welcome our witnesses who have gathered here today 
to give us guidance and insights in our efforts to create innovative 
solutions at the federal level that will address the incredible 
challenges that we face in our attempt to curtail and prevent gang 
violence: Honorable Adam B. Schiff Representative, California's 29th 
District; the Honorable Joe Baca, Representative, California's 43rd 
District; the Honorable Elijah E. Cummings, Representative, Maryland 
7th District; the Honorable Jerry McNerney, Representative, 
California's 11th District; and the Honorable Nick Lampson, 
Representative, Texas' 22nd District. Panel II will include juvenile 
justice experts including: the Honorable Jerrauld C. Jones, Judge, 
Norfolk Juvenile and Domestic Relations District Court; Dr. Peter 
Scharf, Executive Director, Center for Society, Law and Justice, 
Austin, Texas; and Mr. Brian W. Walsh, Senior Legal Research Fellow, 
Center for Legal and Judicial Studies, the Heritage Foundation, 
Washington, D.C. I hope that your testimony here today will prove 
fruitful in guiding this Committee to craft creative and effective 
means to help to eliminate such unnecessary and intolerable acts 
perpetrated through gang crime.
    Mr. Chairman, the purpose of this hearing is to determine an 
appropriate response to gang crime in the United States. It is an 
opportunity for our witnesses to discuss several pending Congressional 
legislative proposals, alternative approaches to stemming violence, and 
the appropriateness of federal law enforcement in criminal activity 
traditionally addressed by the states.
    We are here today to address the increase in violent crime. The 
FBI's Uniform Crime Reporting Program indicates that violent crime--
specifically robberies, homicides, and aggravated assaults--has 
increased 1.9% over 2006; whereas some types of crime--rapes, 
burglaries and auto thefts have continued to fall, The overall crime 
rate--violent crime and non-violent crime considered together--is the 
lowest it has been in 30 years. The top five cities suffering from 
crime increases are St. Louis, MO, Detroit, MI, Flint, MI, Compton, CA, 
and Camden, NJ.
    According to the FBI's report, some crime experts suggest that the 
increase in violent crime is linked to an increase in juvenile crime, 
specifically gang crime. In Oakland, police officials attribute recent 
rises to ``an uptick in Latino gang violence, more turf wars between 
drug gangs and an increase in . . . `mindless violence' among juveniles 
who escalate minor disputes to homicide.'' However, other experts 
disagree that gang activity is on the rise. According to a recently-
released report from the Justice Policy Institute:

        There are fewer gang members in the United States today than 
        there were a decade ago, and there is no evidence that gang 
        activity is growing. . . . [] the most recent comprehensive law 
        enforcement estimate indicates that youth gang membership fell 
        from 850,000 in 1996 to 760,000 in 2004 and that the proportion 
        of jurisdictions reporting gang problems has dropped 
        substantially.

    However, researchers Kevin Pranis and Judith Greene, authors of the 
JPI report, conducted a literature survey of all gang research. They 
found, paradoxically, that there is no consistent relationship between 
law enforcement measures of gang activity and crime trends. An analysis 
of gang membership and crime data from North Carolina found that most 
jurisdictions reporting growth in gang membership also reported falling 
crime rates. Dallas neighborhoods targeted for gang suppression 
activities reported both a drop in gang crime and an increase in 
violent crime.
    Mr. Chairman, some believe that demography has played a role in the 
crime increase. Some cities with rising juvenile populations are 
experiencing a rise in juvenile crime. In other cities, criminals are 
being released from prison after serving lengthy sentences imposed in 
the 80's and 90's. Often these newly released people never received 
treatment while incarcerated and there are few, if any, services 
available to them on the outside. This is a serious problem that must 
be addressed if we are to help lead criminals to a path of 
rehabilitation and to a life of productive citizenship.
    Another explanation for the violent crime increase is diminished 
federal funding of local police forces. For example, under President 
Clinton the COPS program reached a high of $2.5 billion; in comparison 
to 2006 federal funding which was $894 million. The change in funding 
priorities is attributed to increased funding for terrorism instead of 
``bread-and-butter'' crime fighting, according to Los Angeles Police 
Chief Bill Bratton, past president of the Police Executive Research 
Forum. Though funding is essential to combating terrorism, we still 
must provide funding for what is essentially domestic terrorism, gang 
crime.
    Prevention saves lives and money. It pulls poor and minority 
children out of the Cradle-to-Prison Pipeline. While it saves enormous 
amounts in the long run, it can generate higher costs in the short run. 
Thus, garnering the political will among elected officials on two-, 
four-, and six-year electoral cycles to invest in prevention for at-
risk youths is an ongoing and difficult challenge.
    There have also been drastic cuts at the federal level in funding 
support for community-level law enforcement that works alongside of 
prevention and early intervention to reduce crime. Effective law 
enforcement, such as the Community Oriented Policing Services Program 
(COPS), complements and supports prevention and intervention efforts 
for at-risk youths. The cornerstone of community policing is building 
relationships with community members, so that an effective 
collaboration between law enforcement and community members takes root 
and increasingly contributes to community stability and safety. The 
active involvement and concern of community members, sometimes referred 
to as ``collective efficacy,'' is critical to sustained crime 
prevention, particularly in low-income communities. All of these 
programs strengthen the core capabilities of law enforcement agencies 
and have greatly improved their ability to fight and prevent crime. Yet 
budget cuts are forcing layoffs of state and local officers.
    The combination of devastating cuts to critical prevention and 
intervention programs and to community law enforcement is a recipe for 
disaster for poor children, families, and communities. We spend on 
average three times as much per prisoner as per pupil. We don't spend 
enough of the money when and where it can actually make a difference in 
the lives of poor children and families and prevent the need to spend 
more on after-the-fact law enforcement activities and prison.
    We need to continue to seek solutions that will put in place 
effective guidelines for combating, preventing and eliminating gang 
crime in all corners of the United States. I look forward to hearing 
from our witnesses today in our attempt to gain some guidance on this 
very serious matter.
    Thank you. I yield back the balance of my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
